<html>
<title> - CURRENT WATER BILLS</title>
<body><pre>[Senate Hearing 110-460]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-460
 
                          CURRENT WATER BILLS

=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON


               S. 2259                               H.R. 1140

               H.R. 31                               H.R. 1503

               H.R. 716                              H.R. 1725

               H.R. 786                              H.R. 1737

               H.R. 813                              H.R. 2614


                              __________

                             APRIL 8, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources




                     U.S. GOVERNMENT PRINTING OFFICE

43-951 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001 


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                  TIM JOHNSON, South Dakota, Chairman

BYRON L. DORGAN, North Dakota        BOB CORKER, Tennessee
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
JON TESTER, Montana                  JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Johnson, Hon. Tim, U.S. Senator From South Dakota................     1
 Polly, Kris, Deputy Commissioner for External & 
  Intergovernmental Affairs, Bureau of Reclamation, Department of 
  the Interior...................................................     2

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    15

                              Appendix II

Additional material submitted for the record.....................    17


                          CURRENT WATER BILLS

                              ----------                              


                         TUESDAY, APRIL 8, 2008

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:37 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Tim Johnson 
presiding.

OPENING STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH 
                             DAKOTA

    Senator Johnson. I have called this hearing for the Water 
and Power Subcommittee. It is my pleasure to welcome everyone 
here this afternoon.
    Today's hearing is relatively straightforward. Pending 
before the subcommittee are 10 bills that seek to authorize new 
projects under the Bureau of Reclamation's water reuse and 
recycling program, otherwise known as the Title 16 program. The 
BOR is involved in assessing feasibility of each of these 
projects, and today we will hear the results of BOR's 
evaluation.
    All the bills before this subcommittee today, except one, 
involve communities in California. I will briefly summarize 
these bills for the record.
    One, S. 2259 and its companion H.R. 813, the Santa Ana 
River Water Supply Enhancement Act.
    Two, H.R. 31, the Elsinore Valley Municipal Water District 
Recycled Water Act.
    Three, H.R. 716, the Santa Rosa Urban Water Reuse Act.
    Four, H.R. 786, authorizing a water supply demonstration 
project in Los Angeles County.
    Five, H.R. 1140, the South Orange County Recycled Water 
Enhancement Act.
    Six, H.R. 1503, an Arizona bill authorizing the Avra/Black 
Wash Riparian Restoration Project.
    Seven, H.R. 1725, the Rancho California Water District 
Recycled Water Act.
    Eight, H.R. 1737, the city of Oxnard Water Recycling and 
Desalination Act.
    Nine, H.R. 2614, authorizing recycling projects for the 
Yucaipa Valley Water District and the city of Corona, 
California.
    These bills demonstrate the popularity of the Title 16 
program. Communities of all sizes are striving to improve the 
efficiency with which they use water in order to address long-
term needs. The subcommittee's goal is to ensure that any 
legislation that moves forward is consistent with the purpose 
of the Title 16 program and supports the projects that are 
technically and economically viable. I, therefore, look forward 
to learning more about these projects during today's hearing.
    Since there are no Senators otherwise in attendance, we 
will now turn to the sole witness for today's hearing. 
Representing the administration is Kris Polly, the Deputy 
Commissioner for External and Intergovernmental Affairs with 
the Bureau of Reclamation. Welcome and thank you for being 
here, Mr. Polly.
    Before starting, I would like to quickly note that the 
subcommittee has received additional written testimony on 
several of the bills before us today. That testimony, as well 
as the written submission of Mr. Polly, will be made part of 
the official hearing record.
    Senator Johnson. Mr. Polly, please go ahead and summarize 
your written testimony. Following that, we will have a brief 
question and answer period.

  STATEMENT OF KRIS POLLY, DEPUTY COMMISSIONER FOR EXTERNAL & 
INTERGOVERNMENTAL AFFAIRS, BUREAU OF RECLAMATION, DEPARTMENT OF 
                          THE INTERIOR

    Mr. Polly. Thank you, Mr. Chairman. I am Kris Polly, Deputy 
Commissioner for the Bureau of Reclamation. I am pleased to be 
here today to give the Department's views on nine bills which 
would amend Title 16 of Public Law 102-575, the Reclamation 
Wastewater and Groundwater Study Act.
    For the reasons described below, the Department cannot 
support these bills.
    H.R. 813 would authorize the Secretary to participate in 
several projects in southern California.
    Section 2 of the bill authorizes the Secretary to 
participate in the planning and construction of treatment 
systems and wetlands for the flows of the Santa Ana River into 
the Prado Basin. The bill authorizes an appropriation of $20 
million to carry out this function.
    On March 18, 2007, Reclamation approved the feasibility 
study for this project and deemed two of the four component 
treatment systems feasible. The remaining two systems will be 
addressed upon completion of ongoing studies.
    Section 3 of the bill authorizes the Secretary of the 
Interior to assist local agencies and projects to construct 
regional brine lines to export salinity to the Pacific Ocean.
    Section 4 of the bill authorizes the Secretary to 
participate in the planning and construction of the Lower Chino 
Dairy Area Desalination Demonstration and Reclamation Project. 
Reclamation approved the feasibility study associated with the 
project on November 28, 2006, and deemed it to be feasible.
    The Department is concerned that under section 4, the 
legislation proposes a cost sharing of 25 percent, or $50 
million. The Department does not believe there is justification 
to support assigning a cap higher than the current $20 million 
for this project and strongly opposes this provision.
    For these reasons, the Department cannot support H.R. 813.
    H.R. 31 would authorize Interior to participate in the 
planning and construction of facilities to treat and distribute 
recycled water within the Elsinore Valley Municipal Water 
District service area. H.R. 31 provides a Federal funding of 25 
percent of the total project cost, or $12.5 million, whichever 
is less.
    The Elsinore Valley Municipal Water District is heavily 
dependent on imported water provided by the Metropolitan Water 
District of Southern California. In order to lessen this 
dependence and provide for future growth, the district is 
developing plans for recycled water systems in the Alberhill 
and Wildomar areas. The Alberhill system consists of the 
wastewater treatment facility and distribution system including 
pumps, pipelines, and storage facilities. A preliminary 
construction cost estimate for the Alberhill system is $38.5 
million. The Wildomar system also consists of pumps, pipelines, 
and storage facilities. The total estimated cost of the 
Wildomar system is about $19 million.
    Reclamation determined the Wildomar project to be feasible 
on November 15, 2007. The Alberhill system has not been 
reviewed.
    H.R. 716 would authorize the Secretary to participate in 
the planning and construction of the Santa Rosa Urban Water 
Reuse Plan. Under the proposed legislation, costs incurred by 
the city of Santa Rosa prior to the date of enactment would be 
credited by the Secretary toward the total cost of the Santa 
Rosa Urban Water Reuse Plan. Reclamation is working with the 
city to develop a feasibility study, but Reclamation has not 
yet determined the feasibility of this project.
    The project envisioned in H.R. 786 involves infiltration of 
storm water runoff to recharge the groundwater basin in the Los 
Angeles and San Gabriel watersheds.
    The Department believes that it is not necessary to 
specifically authorize a demonstration project under Title 16 
since section 1605 already provides authority to participate in 
demonstration projects. Further, Congress appropriated $492,000 
for this demonstration project in fiscal year 2008, and 
Reclamation has already begun participation in this project.
    H.R. 1140 would authorize planning and construction for two 
projects.
    Section 2 of the bill deals with the San Juan Capistrano 
Recycled Water System, with a Federal cost share not to exceed 
25 percent and a funding authorization of $18.5 million. 
Reclamation reviewed this project as part of the CALFED Title 
16 review and found the information submitted for this project 
lacks six of the nine requirements needed to determine 
feasibility. Absent these items, Reclamation cannot determine 
the feasibility of this project.
    Section 2 of the bill would also authorize the San Clemente 
Reclaimed Water Project. The local district has not been in 
consultation with Reclamation, nor has Reclamation received any 
copies of a feasibility study to support the authorization of 
this project.
    H.R. 1503 would authorize the Secretary to participate in 
the planning and construction of a water recycling facility to 
enhance and restore riparian habitat in the Black Wash Sonoran 
Desert Ecosystem in Avra Valley, Arizona. H.R. 1503 provides 
for Federal funding of 25 percent of the total project cost, or 
$14 million, whichever is less.
    Pima County intends to expand its 1.5 million gallon per 
day wastewater treatment facility to a capacity of 5 million 
gallons per day. Currently treated effluent is not reused. The 
proposed project would provide tertiary treatment and establish 
procedures to recharge the reclaimed water in ponds and the 
Black Wash. Recharging the water in the channel of Black Wash 
will create and preserve wildlife habitat.
    The Department supports efforts to increase reclaimed water 
use in southern Arizona. Reclamation has been working with Pima 
County to review the technical, regulatory, and contractual 
issues involved in the project. The discussions have been 
preliminary. To date, steps necessary to prepare a feasibility 
report have not been discussed.
    H.R. 1725 would authorize participation in the planning and 
the construction of the Rancho California Water District's 
facilities for water recycling, desalination, and distribution 
of non-potable water supplies.
    The Rancho California Water District is heavily dependent 
on imported water provided by the Metropolitan District of 
Southern California. In order to lessen this dependence, the 
district has developed a regional integrated resources plan. 
Together, the component projects would expand local water 
resources by increasing conjunctive use, expanding the use of 
recycled water, and substituting untreated water for the 
treated water that is currently being used for agricultural 
irrigation.
    Implementation of the plan would require the construction 
of pipelines, pumping plants, an advanced water treatment 
facility, and brine disposal facilities. Reclamation, in 
collaboration with the district, recently completed work on a 
feasibility study, and on November 15, 2007, deemed this 
project feasible.
    In fiscal year 2008, Congress appropriated $123,000 for 
this project. Using these funds, Reclamation is working with 
the Rancho California Water District to complete compliance 
with the National Environmental Policy Act for this project.
    H.R. 1737 would authorize participation in the planning and 
construction of the Groundwater Recovery Enhancement and 
Treatment Project, also known as the GREAT project, which would 
reclaim impaired water in the area of Oxnard, California.
    The GREAT project consists of three parts: one, a regional 
groundwater desalination facility; two, a recycled water system 
to serve agricultural water users and to protect groundwater 
sources from saltwater intrusion; and three, a brine line that 
will convey desalination concentrates to an enhanced saltwater 
wetland.
    Reclamation currently is reviewing the feasibility study 
submitted by the city of Oxnard for this project.
    H.R. 2614 would authorize the planning and construction of 
two projects that treat impaired surface water, reclaim and 
reuse impaired groundwater and wastewater, and provide brine 
disposal in the State of California.
    First, this bill would authorize the Yucaipa Valley 
Regional Water Supply Renewal Project. Reclamation has reviewed 
the facility and the feasibility study submitted by the Yucaipa 
Valley Water District, and this project was deemed feasible on 
March 26, 2008.
    H.R. 2614 would also authorize the city of Corona Water 
Utility, Water Recycling, and Reuse Project. Reclamation has 
reviewed the feasibility study submitted by the city of Corona. 
Based on the technical information provided, Reclamation cannot 
determine the feasibility of this project and additional 
information has been requested from the city.
    In closing, I would like to note that of the 35 Title 16 
projects specifically authorized and the 2 demonstration 
projects undertaken through the general authority, 21 projects 
are actively being pursued and 4 are complete. The Federal cost 
share for the active projects, after fiscal ear 2008, is nearly 
$400 million. The Federal cost share for the 12 projects 
currently not being pursued is an estimated $220 million.
    Given Reclamation's current annual budget of approximately 
$900 million, this is not an insubstantial number. In light of 
this fact and the substantial Federal cost share associated 
with the active Title 16 projects, we cannot support the 
authorization of new projects at this time.
    While the Department is not able to support new project 
authorizations, we certainly understand the projects 
established by Title 16 are important to many water users in 
the West. To that end, Reclamation actually works with local 
sponsors on feasibility reviews of Title 16 projects. By doing 
so, we believe that Reclamation can play a constructive, albeit 
limited, role with local sponsors in weighing the merits and 
ultimate feasibility of proposed water recycling projects.
    Mr. Chairman, this concludes my comments. I would be happy 
to answer any questions that you may have.
    [The prepared statements of Mr. Polly follow:]

                                h.r. 813
    Mr. Chairman and members of the Subcommittee, I am Kris Polly, 
Deputy Commissioner at the Bureau of Reclamation. I am pleased to be 
here today to give the Department's views on HR 813, the Santa Ana 
River Water Supply Enhancement Act of 2007. The Department does not 
support this bill.
    HR 813 would amend Title XVI, the Reclamation Wastewater and 
Groundwater Study and Facilities Act to authorize the Secretary of the 
Interior to participate in several projects.
    Section 2 of the bill authorizes the Secretary of the Interior, in 
cooperation with the Orange County Water District, to participate in 
the planning, design, and construction of the natural treatment systems 
and wetlands for the flows of the Santa Ana River, California, and its 
tributaries into the Prado Basin. Section 2 of the bill authorizes an 
appropriation of $20 million to carry out this function. With regard to 
this project, on March 18, 2007, Reclamation approved the feasibility 
study and deemed two of the four component treatment systems feasible. 
The remaining two systems will be addressed upon completion of ongoing 
studies.
    Section 3 of the bill authorizes the Secretary of the Interior, 
under Federal reclamation law and in cooperation with units of local 
government, to assist agencies in projects to construct regional brine 
lines to export the salinity imported from the Colorado River to the 
Pacific Ocean.
    Section 4 of the bill authorizes the Secretary of the Interior, in 
cooperation with the Chino Basin Watermaster, the Inland Empire 
Utilities Agency, and the Santa Ana Watershed Project Authority, acting 
under Federal Reclamation laws, to participate in the design, planning, 
and construction of the Lower Chino Dairy Area desalination 
demonstration and reclamation project. With regard to this project, 
Reclamation approved the feasibility study on November 28, 2006 and 
deemed this project feasible.
    These three projects would have to compete with other needs within 
the Reclamation program for funding priority in the President's Budget.
    In addition to the proposed three projects, the Department is also 
concerned that under section 4, the legislation proposes a cost sharing 
of 25 percent, not to exceed $50.0 million. The Department does not 
believe there is justification to support assigning a cap higher than 
$20.0 million, the cap for Title XVI projects enacted after 1996, and 
strongly opposes this provision.
    While the Department supports efforts to increase local water 
supplies and increase recycled water use in California, the Department 
does not support HR 813. The Department continues to believe it is not 
prudent to authorize new Title XVI projects in light of the Federal 
cost share already authorized for Title XVI projects now being actively 
pursued.
    Of the 35 Title XVI projects specifically authorized and 2 
demonstration projects undertaken through the general authority, 21 
projects are actively being pursued and 4 are complete. The remaining 
authorized Federal cost share for the active projects, after FY 2008, 
is nearly $400 million. The authorized Federal cost share for the 12 
projects currently not being pursued is estimated at $220 million.
    While Reclamation is not supporting new project authorizations at 
this time, we understand that the projects established by Title XVI are 
important to many water users in the West. To that end, Reclamation has 
revised and improved its Directives and Standards that govern reviews 
of Title XVI projects. By doing so, we believe that Reclamation can 
play a more constructive role with local sponsors in weighing the 
merits and ultimate feasibility of proposed water recycling projects.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to comment on HR 813. I would be happy to answer any 
questions at this time.
                                h.r. 31
    Mr. Chairman and Members of the Subcommittee, I am Kris Polly, 
Deputy Commissioner at the Bureau of Reclamation. I am pleased to be 
here today to give the Department of the Interior's views on HR 31, the 
Elsinore Valley Municipal Water District Wastewater and Recycled Water 
Facilities Act. Although the Wildomar portion of this project has been 
deemed technically feasible, the Department does not support HR 31.
    HR 31 would amend the Reclamation Wastewater and Groundwater Study 
and Facilities Act (Public Law 102-575, 43 U.S.C. 390h et seq.), to 
authorize the Secretary of the Interior to participate in the design, 
planning, and construction of facilities needed to treat wastewater and 
distribute recycled water within the Elsinore Valley Municipal Water 
District's service area. It provides for Federal funding of 25 percent 
of the total project cost or $12.5 million, whichever is less.
    The Elsinore Valley Municipal Water District is located in 
southwestern Riverside County, which has been experiencing rapid 
growth. The District is heavily dependent on imported water provided by 
the Metropolitan Water District of Southern California. In order to 
lessen this dependence and to provide for additional future growth, the 
District is developing plans for recycled water systems in the 
Alberhill and Wildomar areas.
    The Alberhill system consists of a wastewater treatment facility 
and distribution system, which includes pumps, pipelines, and storage 
facilities. A preliminary construction cost estimate of the Alberhill 
system is $38.5 million. The Wildomar system consists of a distribution 
system which includes pumps, pipelines, and storage facilities. Total 
estimated cost of the Wildomar system is about $19 million.
    Reclamation has determined the Wildomar project to be feasible on 
November 15, 2007. The Alberhill system has not been reviewed.
    While the Department supports efforts to increase local water 
supplies and increase recycled water use, we do not support HR 31. 
These projects would have to compete with other needs within the 
Reclamation program for funding priority in the President's Budget. The 
Department continues to believe it is not prudent to authorize new 
Title XVI projects in light of the Federal cost share already 
authorized for Title XVI projects now being actively pursued.
    Of the 35 Title XVI projects specifically authorized and 2 
demonstration projects undertaken through the general authority, 21 
projects are actively being pursued and 4 are complete. The Federal 
cost share for the active projects, after FY 2008, is nearly $400 
million. The Federal cost share for the 12 projects currently not being 
pursued is estimated at $220 million.
    While Reclamation is not supporting new project authorizations at 
this time, we understand that the projects established by Title XVI are 
important to many water users in the West. To that end, Reclamation has 
revised and improved its Directives and Standards that govern reviews 
of Title XVI projects. By doing so, we believe that Reclamation can 
play a more constructive role with local sponsors in weighing the 
merits and ultimate feasibility of proposed water recycling projects.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to comment on HR 31. I would be happy to answer any 
questions at this time.
                                h.r. 716
    Mr. Chairman and members of the Subcommittee, I am Kris Polly, 
Deputy Commissioner at the Bureau of Reclamation. I am pleased to 
provide the Department of the Interior's views on HR 716, a bill to 
authorize Reclamation to participate in the design, planning, and 
construction of the Santa Rosa Urban Water Reuse Plan. The Department 
does not support HR 716.
    HR 716 would amend the Reclamation Wastewater and Groundwater Study 
and Facilities Act (Public Law 102-575, Title XVI) to include the City 
of Santa Rosa, California, Urban Water Reuse Plan. Under the proposed 
legislation, costs incurred by the City of Santa Rosa prior to the date 
of enactment would be credited by the Secretary toward the total cost 
of the Santa Rosa Urban Water Reuse Plan.
    Reclamation is working with the City of Santa Rosa to develop a 
feasibility study, but Reclamation has not yet determined the 
feasibility of this project. I would like note that the Department does 
support efforts to increase local water supplies and increase recycled 
water use in the West; however, Title XVI provisions require that these 
technical studies be completed and reviewed to determine the 
feasibility and cost effectiveness. The Department believes this 
legislation should not be enacted without a proper analysis to ensure 
this project is feasible.
    Further, H.R. 716 authorizes the appropriation of up to $20 million 
or a maximum of 25 percent of total project costs, whichever is less. 
This project would have to compete with other needs within the 
Reclamation program for funding priority in the President's Budget. The 
Department continues to believe it is not prudent to authorize new 
Title XVI projects in light of the Federal cost share already 
authorized for Title XVI projects now being actively pursued.
    Of the 35 Title XVI projects specifically authorized and 2 
demonstration projects undertaken through the general authority, 21 
projects are actively being pursued and 4 are complete. The Federal 
cost share for the active projects, after FY 2008, is nearly $400 
million. The Federal cost share for the 12 projects currently not being 
pursued is estimated at $220 million.
    While Reclamation is not supporting new project authorizations at 
this time, we understand that the projects established by Title XVI are 
important to many water users in the West. To that end, Reclamation has 
developed Directives and Standards that govern reviews of Title XVI 
projects. By doing so, we believe that Reclamation can play a more 
constructive role with local sponsors in weighing the merits and 
ultimate feasibility of proposed water recycling projects.
    For the reasons noted above, the Department does not support HR 
716. Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions.
                                h.r. 786
    Mr. Chairman and Members of the Subcommittee, I am Kris Polly, 
Deputy Commissioner at the Bureau of Reclamation. I am pleased to be 
here today to give the Department's views on HR 786, the Los Angeles 
County Water Supply Augmentation Demonstration Project. The Department 
does not support this legislation. It is not necessary to specifically 
authorize a demonstration project under Title XVI of P.L. 102-575, as 
amended, since Section 1605 already provides authority to participate 
in demonstration projects. We are already implementing this proposed 
project using funds appropriated in FY 2008.
    The project that HR 786 would involve infiltration of storm water 
runoff to recharge the groundwater basin in the Los Angeles and San 
Gabriel Watersheds. The project consists of a neighborhood 
demonstration project that would demonstrate the potential for 
infiltration of storm water runoff to recharge groundwater by 
retrofitting one or more sites in the Los Angeles Area with state-of-
the-art best management practices and perform pre-development and post-
development monitoring to assess the resulting potential new water 
supply.
    This project was jointly developed by the Los Angeles and San 
Gabriel Rivers Watershed Council, City of Los Angeles Department of 
Water and Power, Los Angeles County Department of Public Works, Los 
Angeles Regional Water Quality Control Board, Metropolitan Water 
District of Southern California, Water Replenishment District of 
Southern California, City of Los Angeles Bureau of Sanitation, and the 
City of Santa Monica Environmental Programs Division, with technical 
input from Reclamation. Project benefits include local drought 
protection, water quality improvements and reduced dependence on 
imported water.
    HR 786 would authorize Reclamation to participate in planning, 
design, construction and assessment of a demonstration project. The 
legislation does not specify an authorization of appropriations amount, 
but provides that the Federal share should not exceed 25 percent of 
project costs. However, since Section 1605 of Title XVI already 
authorizes the Secretary to construct, operate, and maintain 
demonstration projects, and since Congress has appropriated $492,000 
for this demonstration project in Fiscal Year 2008, Reclamation has 
already initiated participation in this project. Because of other 
priorities in the President's Budget, we have not included funding for 
this project in our FY 2009 budget.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to comment on HR 786. I would be happy to answer any 
questions at this time.
                               h.r. 1140
    Mr. Chairman and members of the Subcommittee, I am Kris Polly, 
Deputy Commissioner at the Bureau of Reclamation. I am here today to 
present the views of the Department of the Interior on HR 1140, a bill 
to authorize water recycling projects in Southern California. HR 1140 
would amend Title XVI, the Reclamation Wastewater and Groundwater Study 
and Facilities Act (P.L. 102-575) to include design, planning, and 
construction authority for two local projects. For reasons described 
below, the Department does not support HR 1140.
    HR 1140, as written, would amend Title XVI to authorize the 
Secretary of the Interior to participate in the design, planning, and 
construction of two water recycling projects in south Orange County in 
the State of California.
    Section 2 of the bill would authorize the San Juan Capistrano 
Recycled Water System, with a Federal cost share not to exceed 25 
percent, and a funding authorization of appropriation of $18.5 million. 
Reclamation reviewed this project as part of the CALFED/TitleXVI review 
and found the information submitted for this project lacked 6 of the 9 
requirements needed to determine feasibility. Absent these items, 
Reclamation could not determine the feasibility of the project. This 
does not mean the project is not feasible, but rather that until the 
six remaining items are completed, Reclamation cannot provide a 
feasibility determination.
    Section 2 of the bill would also authorize the San Clemente 
Reclaimed Water Project. The local district has not been in 
consultation with Reclamation nor has Reclamation received any copies 
of a feasibility study to support the authorization of this project. 
Without a proper analysis to ensure this project meets appropriate 
federal guidelines for consideration of construction authorization, we 
cannot support Reclamation's participation in the planning, design and 
construction activities.
    While the Department supports efforts to increase local water 
supplies and increase recycled water use, we do not support H.R. 1140. 
This project would have to compete with other needs within the 
Reclamation program for funding priority in the President's Budget. The 
Department continues to believe it is not prudent to authorize new 
Title XVI projects in light of the Federal cost share already 
authorized for Title XVI projects now being actively pursued.
    Of the 35 Title XVI projects specifically authorized and 2 
demonstration projects undertaken through the general authority, 21 
projects are actively being pursued and 4 are complete. The Federal 
cost share for the active projects, after FY 2008, is nearly $400 
million. The Federal cost share for the 12 projects currently not being 
pursued is estimated at $220 million.
    While Reclamation is not supporting new project authorizations at 
this time, we understand that the projects established by Title XVI are 
important to many water users in the West. To that end, Reclamation 
revised and improved its Directives and Standards that govern reviews 
of Title XVI projects. By doing so, we believe that Reclamation can 
play a more constructive role with local sponsors in weighing the 
merits and ultimate feasibility of proposed water recycling projects.
    Mr. Chairman, this concludes by testimony. Thank you for the 
opportunity to comment on HR 1140. I would be happy to answer any 
questions at this time.
                               h.r. 1503
    Mr. Chairman and Members of the Subcommittee, I am Kris Polly, 
Deputy Commissioner at the Bureau of Reclamation. I am pleased to be 
here today to give the Department of the Interior's views on HR 1503, 
the Avra/Black Wash Reclamation and Riparian Restoration Project Act. 
The Department does not support HR 1503.
    H.R. 1503 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (43 U.S.C. 390h et seq.), to authorize the 
Secretary of the Interior to participate in the design, planning, and 
construction of water recycling facilities to enhance and restore 
riparian habitat in the Black Wash Sonoran Desert ecosystem in Avra 
Valley, west of the metropolitan Pima County area in Arizona. It 
provides for Federal funding of 25 percent of the total project cost or 
$14 million, whichever is less.
    Pima County intends to expand the 1.5 million gallon per day 
wastewater treatment facility to a capacity of 5 mgd. Currently, 
treated effluent is not reused. The proposed project would provide 
tertiary treatment and establish procedures to recharge the reclaimed 
water in ponds and the Black Wash. The treated effluent that was 
previously evaporated would instead recharge the aquifer, and state law 
would allow this recharge to be measured and stored as credits to be 
pumped at a later date. By recharging the water in the channel of Black 
Wash, riparian and wildlife habitat will be created, preserved and 
protected. The project includes plans to provide baseline ecological 
reconnaissance for monitoring of diversity and ecological health of the 
site.
    The Department supports efforts to increase reclaimed water use in 
southern Arizona. Reclamation has been working with Pima County to 
review the technical, regulatory and contractual issues involved in the 
project but discussions have been preliminary. To date, the steps 
necessary to prepare a feasibility report that meet the requirements 
for feasibility of Title XVI projects have not been discussed. Because 
the technical studies are not complete, the feasibility and cost 
effectiveness of this project cannot be determined.
    In addition, while the Department supports efforts to increase 
local water supplies and increase recycled water use, we do not support 
H.R. 1503. The Department continues to believe it is not prudent to 
authorize new Title XVI projects in light of the Federal cost share 
already authorized for Title XVI projects now being actively pursued. 
This project would have to compete with other needs within the 
Reclamation program for funding priority in the President's Budget.
    Of the 35 Title XVI projects specifically authorized and 2 
demonstration projects undertaken through the general authority, 21 
projects are actively being pursued and 4 are complete. The Federal 
cost share for the active projects, after FY 2008, is nearly $400 
million. The Federal cost share for the 12 projects currently not being 
pursued is estimated at $220 million.
    While Reclamation is not supporting new project authorizations at 
this time, we understand that the projects established by Title XVI are 
important to many water users in the West. To that end, Reclamation 
revised and improved its Directives and Standards that govern reviews 
of Title XVI projects. By doing so, we believe that Reclamation can 
play a more constructive role with local sponsors in weighing the 
merits and ultimate feasibility of proposed water recycling projects.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 1503. I would be happy to answer any 
questions at this time.
                               h.r. 1725
    Mr. Chairman and Members of the Subcommittee, I am Kris Polly, 
Deputy Commissioner at the Bureau of Reclamation. I am pleased to be 
here today to give the Department of the Interior's views on HR 1725, 
the Rancho California Water District Recycled Water Treatment and 
Reclamation Facility Act. Although the project has been deemed 
technically feasible, the Department does not support HR 1725.
    HR 1725 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (43 U.S.C. 390h et seq.), to authorize the 
Secretary of the Interior to participate in the design, planning, and 
construction of the Rancho California Water District's facilities for 
water recycling, demineralization, desalination, and distribution of 
non-potable water supplies in Riverside County, California.
    The Rancho California Water District is located in southwestern 
Riverside County, which has been experiencing explosive growth. The 
District is heavily dependent on imported water provided by the 
Metropolitan Water District of Southern California. In order to lessen 
this dependence the District has developed a Regional Integrated 
Resources Plan that includes three components. Together, the component 
projects will expand local water resources by increasing conjunctive 
use by about 13,000 acre-feet per year, expanding the use of recycled 
water by about 16,000 acre-feet per year, and substituting untreated 
water for the treated water that is currently being used for 
agricultural irrigation. Implementation of the Regional Integrated 
Resources Plan would require the construction of pipelines, pumping 
plants, an advanced water treatment facility, and brine disposal 
facilities. The total estimated cost is about $350 million.
    Reclamation, in collaboration with the District, recently completed 
work on a feasibility study and, on November 15, 2007, deemed this 
project feasible. In Fiscal Year 2008, Congress appropriated $123,000 
for this project. Using these funds, Reclamation is working with the 
Rancho California Water District to complete compliance with the 
National Environmental Policy Act (NEPA) for this project.
    H.R. 1725 authorizes the appropriation of up to $20 million or a 
maximum of 25 percent of total project costs, whichever is less. The 
Department supports efforts to increase local water supplies and 
increase recycled water use in southern California. However, this 
project would have to compete with other needs within the Reclamation 
program for funding priority in the President's Budget. While we are 
committed to working with the District to address its water supply 
needs, the Department continues to believe it is not prudent to 
authorize new Title XVI projects in light of the Federal cost share 
already authorized for Title XVI projects now being actively pursued.
    Of the 35 Title XVI projects specifically authorized and 2 
demonstration projects undertaken through the general authority, 21 
projects are actively being pursued and 4 are complete. The Federal 
cost share for the active projects, after FY 2008, is nearly $400 
million. The Federal cost share for the 12 projects currently not being 
pursued is estimated at $220 million.
    While Reclamation is not supporting new project authorizations at 
this time, we understand that the projects established by Title XVI are 
important to many water users in the West. To that end, Reclamation has 
revised and improved its Directives and Standards that govern reviews 
of Title XVI projects. By doing so, we believe that Reclamation can 
play a more constructive role with local sponsors in weighing the 
merits and ultimate feasibility of proposed water recycling projects.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to comment on HR 1725. I would be happy to answer any 
questions at this time.
                               h.r. 1737
    Mr. Chairman and Members of the Subcommittee, I am Kris Polly, 
Deputy Commissioner at the Bureau of Reclamation. I am pleased to be 
here today to give the Department's views on HR 1737, the City of 
Oxnard Water Recycling and Desalination Act of 2007. Due to the reasons 
outlined below, the Department cannot support this legislation.
    HR 1737 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (43 U.S.C. 390h et seq.) to authorize the 
Secretary to participate in the design, planning, and construction of 
permanent facilities for the Groundwater Recovery Enhancement and 
Treatment (GREAT) project, which would reclaim impaired water in the 
area of Oxnard, located in Ventura County, California. It provides for 
Federal funding of 25 percent of the total project cost or $20 million, 
whichever is less.
    The City of Oxnard, Port Hueneme Water Agency, United Water 
Conservation District, and Calleguas Municipal Water District have 
jointly developed the GREAT project, which consists of three parts: (1) 
a regional groundwater desalination facility; (2) a recycled water 
system to serve agricultural water users and to protect groundwater 
sources from seawater intrusion; and (3) a brine line that will convey 
desalination concentrates to an enhanced saltwater wetland. Project 
benefits include local drought protection and reduced dependence on 
imported water.
    Mr. Chairman, the Department supports efforts to increase local 
water supplies, including brackish groundwater desalination and 
reclaimed water use, in southern California. However, HR 1737 would 
authorize the design and construction of the project before the 
feasibility study is completed. Reclamation prefers that feasibility 
studies be completed first to determine whether a particular project 
warrants Federal construction authorization.
    With regard to this specific project, Reclamation currently is 
reviewing the feasibility study submitted by the City of Oxnard for 
this project. Therefore, the Department believes the legislation to be 
premature and cannot support HR 1737 at this time. This project would 
have to compete with other needs within the Reclamation program for 
funding priority in the President's budget. The Department continues to 
believe it is not prudent to authorize new Title XVI projects in light 
of the Federal cost share already authorized for Title XVI projects now 
being actively pursued.
    Of the 35 Title XVI projects specifically authorized and 2 
demonstration projects undertaken through the general authority, 21 
projects are actively being pursued and 4 are complete. The Federal 
cost share for the active projects, after FY 2008, is nearly $400 
million. The Federal cost share for the 12 projects currently not being 
pursued is estimated at $220 million.
    While Reclamation is not supporting new project authorizations at 
this time, we understand that the projects established by Title XVI are 
important to many water users in the West. To that end, Reclamation has 
revised and improved its Directives and Standards that govern reviews 
of Title XVI projects. By doing so, we believe that Reclamation can 
play a more constructive role with local sponsors in weighing the 
merits and ultimate feasibility of proposed water recycling projects.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to comment on HR 1737. I would be happy to answer any 
questions at this time.
                               h.r. 2614
    Mr. Chairman and members of the Subcommittee, I am Kris Polly, 
Deputy Commissioner of the Bureau of Reclamation. I am here today to 
present the views of the Department of the Interior on HR 2614, a bill 
to authorize water supply, reclamation reuse and recycling, and 
desalination projects in Southern California. HR 2614 would amend Title 
XVI, the Reclamation Wastewater and Groundwater Study and Facilities 
Act (P.L. 102-575) to include design, planning, and construction 
authority for two specific projects. For reasons described below, the 
Department does not support HR 2614.
    HR 2614, as written, would authorize the design, planning, and 
construction of projects to treat impaired surface water, reclaim and 
reuse impaired groundwater and wastewater, and provide brine disposal 
in the State of California.
    Specifically, this bill would authorize the Yucaipa Valley Regional 
Water Supply Renewal Project. Reclamation has reviewed the feasibility 
study submitted by the Yucaipa Valley Water District. Based on the 
technical information provided, Reclamation could not determine the 
feasibility of the project, and additional information was requested. 
The District recently submitted the additional information, and 
Reclamation's final analysis of the project's feasibility is expected 
soon.
    HR 2614 would also authorize the City of Corona Water Utility, 
California Water Recycling and Reuse Project. Reclamation has reviewed 
the feasibility study submitted by the City of Corona. Based on the 
technical information provided, Reclamation could not determine the 
feasibility of the project, and additional information has been 
requested from the City. This does not mean the project is not 
feasible, but rather that until the remaining information is reviewed, 
Reclamation cannot provide a feasibility determination.
    Mr. Chairman, the Department supports efforts to increase local 
water supplies and increase recycled water use in southern California. 
However, HR 2614 would authorize the design and construction of these 
projects before the feasibility study is completed. Reclamation prefers 
that feasibility studies be completed first to determine whether these 
particular projects warrant Federal construction authorization. The 
Department believes this legislation is premature and does not support 
HR 2614.
    In addition, H.R. 2614 authorizes the appropriation of up to $20 
million or a maximum of 25 percent of total project costs, whichever is 
less, for each of these two projects. These projects would have to 
compete with other needs within the Reclamation program for funding 
priority in the President's Budget.
    Moreover, the Department continues to believe it is not prudent to 
authorize new Title XVI projects in light of the Federal cost share 
already authorized for Title XVI projects now being actively pursued.
    Of the 35 Title XVI projects specifically authorized and 2 
demonstration projects undertaken through the general authority, 21 
projects are actively being pursued and 4 are complete. The Federal 
cost share for the active projects, after FY 2008, is nearly $400 
million. The Federal cost share for the 12 projects currently not being 
pursued is estimated at $220 million.
    While Reclamation is not supporting new project authorizations at 
this time, we understand that the projects established by Title XVI are 
important to many water users in the West. To that end, Reclamation has 
revised and improved its Directives and Standards that govern reviews 
of Title XVI projects. By doing so, we believe that Reclamation can 
play a more constructive role with local sponsors in weighing the 
merits and ultimate feasibility of proposed water recycling projects.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to comment on HR 2614. I would be happy to answer any 
questions at this time.

    Senator Johnson. Mr. Polly, according to your testimony, 
BOR has a backlog of about $400 million in Title 16 projects. 
Yet, the President's 2009 budget requests only $7 million for 
construction. This is a 70 percent reduction from the 2008 
appropriations provided by Congress, which was $24 million.
    In the face of increasing concerns about water 
availability, whether due to draught, climate change, 
environmental needs, or population increases, what is the 
justification for the defunding of a successful program that 
required a relatively low cost share and promotes water use 
efficiency?
    Mr. Polly. Thank you, Mr. Chairman.
    The Title 16 program is an important program. It represents 
new water. However, it is one program among many that the 
Bureau of Reclamation and the Department has to divide our 
limited resources to fund, and priorities are set accordingly.
    Senator Johnson. Your testimony on H.R. 813 strongly 
opposes a provision which would allow an increase in their 
overall cap in the Lower Chino project to $50 million. The cap 
in the Lower Chino project in its Senate counterpart, S. 2259, 
is $26 million. The general cap on an individual Title 16 
project under existing law is $20 million in October 1996 
prices. If the $20 million cap is based on 1996 prices, what is 
the cap in today's dollars?
    Mr. Polly. Mr. Chairman, the cap is probably closer to $30 
million. However, we will get you a thorough, comprehensive 
answer for you and the committee.
    Senator Johnson. S. 2259 calls for the establishment of a 
center for technological advancements of membrane technology 
and education in Orange County. Your written testimony does not 
address this provision. What is the Department's position on 
the establishment of the center?
    Mr. Polly. Mr. Chairman, the Bureau of Reclamation has a 
technical services center in Denver, Colorado that, among other 
things, does desalination research. We also have a facility in 
New Mexico called Tula rosa that specifically works on brackish 
groundwater desalination. For those reasons, we did not think 
an additional facility was necessary.
    Senator Johnson. Your testimony indicates that the BOR is 
already participating in the demonstration project that is the 
subject of H.R. 786. This innovative approach to groundwater 
recharge would seem to have potential application elsewhere. 
Does BOR view this as a worthwhile project which warrants more 
support?
    Mr. Polly. Yes, it is a worthwhile project. However, our 
participation is based on appropriations, and our priorities 
have to be set according to our budget demands.
    Senator Johnson. Three of the bills before this 
subcommittee today involve desalination projects: S. 2259, H.R. 
737, and H.R. 2614. Obviously, desalination must be 
economically viable in southern California. Are the economics 
associated with these projects unique to southern California, 
or is desalination becoming viable in other areas of the 
country?
    Mr. Polly. Desalination is primarily of great interest to 
those regions with very limited water supplies. It is our 
understanding that in the private sector, the cost for 
desalination ranges between $400 and $1,200 per acre foot. I 
know at the Bureau of Reclamation's own desalination plant in 
Yuma our costs are between $300 and $900 per acre foot. 
Ultimately, the viability of desalination rests within the 
pocketbook of the beholder.
    Senator Johnson. Your testimony notes that the BOR has not 
yet prepared a feasibility report for the Avra/Black Wash 
project in Arizona and that the necessary technical studies 
have not been completed. Has Pima County done any technical 
work which it has submitted to the BOR for review? Does BOR 
know the basis for the $14 million authorized for the project?
    Mr. Polly. We have been in conversations with Pima County 
since 2005. However, our conversations have been largely 
conceptual. We have not discussed feasibility reports.
    As to the $14 million, we cannot speak to that.
    Senator Johnson. The status of the feasibility reviews for 
several projects is not clear from your testimony. For example, 
one, a regional brine line in H.R. 813; two, the Alberhill 
project in H.R. 31; three, the Santa Rosa project in H.R. 716; 
four, the Oxnard project in H.R. 1737; and five, the projects 
in H.R. 2614.
    Can you elaborate on the specific status of the pending 
feasibility reviews or at least provide them for the record? If 
and when BOR makes a positive feasibility determination on any 
of these projects, will you ensure that the subcommittee is 
informed?
    Mr. Polly. Mr. Chairman, the status of the feasibility 
studies are the subject of ongoing conversations between our 
people in the field and the project sponsors. So we are happy 
to obtain that information and provide a comprehensive answer 
to you and the committee.
    As for reporting on the status of those feasibility studies 
once they are complete, our history has always been to send a 
letter to the project sponsors to inform them their project has 
become feasible, and we are happy to provide that same 
information to the committee, should the project sponsors and 
the committee wish that.
    Senator Johnson. I have no additional questions. Thank you, 
Mr. Polly, for representing the administration's views today.
    For the information of Senators and their staffs, questions 
for the record are due by close of business tomorrow.
    With that, this hearing is adjourned.
    [Whereupon, at 2:59 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Responses of Kris Polly to Questions From Senator Johnson
    Question 1a. Your ``revised and improved Directives and Standards'' 
for the Title 16 program indicates that BOR ``may also receive funding 
from the non-Federal project sponsor to perform the [feasibility] 
review process.'' Has BOR requested funding in the 2009 budget for 
performing feasibility reviews for Title 16 projects, or does it rely 
on non-Federal project sponsors?
    Answer. The President's FY 2009 budget contains a request for 
$800,000 for research and administration of the Title XVI program--
including $50,000 for Reclamation's participation in the review of 
appraisal and feasibility level studies.
    Question 1b. Did BOR receive funding from the non-Federal project 
sponsors of the projects being heard today? How much funding does BOR 
ask for to do its reviews?
    Answer. Reclamation did not obtain any money from the non-Federal 
sponsors of these projects. Reclamation does not ask for funds from 
sponsors to perform its reviews. We perform this work as a general 
service for our customers.
    Question 2. Your testimony on H.R. 813 strongly opposes the 
provision that would increase the overall cap on the Lower Chino 
Project to $50 million. The cap on the Lower Chino Project in the 
Senate counterpart--S.2259--is $26 million. The general cap on 
individual Title 16 projects under existing law is $20 million in 
October 1996 prices. If the $20 million cap is based on 1996 prices, 
what is the cap in today's dollars?
    Answer. In very basic terms, the cap in today's dollars would be 
approximately $27 million. However the law gives Reclamation discretion 
in implementing the cap. Any expansion of this cap would further 
jeopardize Reclamation's ability to address the approximately $655 
million backlog of already authorized Title XVI projects. The 
Department does not believe there is justification to support assigning 
a cap higher than $20.0 million, the cap for Title XVI projects enacted 
after 1996. While Reclamation is not supporting new project 
authorizations at this time, we understand that the projects 
established by Title XVI are important to many water users in the West.
    Question 3. S. 2259 calls for the establishment of a ``Center for 
Technological Advancement of Membrane Technology and Education'' at 
Orange County. Your written testimony does not address this provision. 
What is the Department's position on the establishment of the Center?
    Answer. Reclamation already has a Technical Service Center in 
Denver which is a world-class engineering, science, research, and 
support center for water related projects. Similarly, Reclamation, in 
conjunction with experts from across the country, operates the Tularosa 
Basin National Desalination Research Facility in New Mexico and the 
Water Quality Improvement Center in Yuma Arizona. In light of these 
facilities and the expertise possessed by Reclamation, this Center is 
unnecessary.
    Question 4a. The status of feasibility reviews for several projects 
is not clear from your testimony. For example, (1) the regional brine 
lines in H.R. 813; (2) the Alberhill project in H.R. 31; (3) the Santa 
Rosa project in H.R. 716; (4) the Oxnard project in H.R. 1737; and (5) 
the projects in H.R. 2614. Can you elaborate on the specific status of 
the pending feasibility reviews, or at least provide them for the 
record?
    (1) Regional Brine Lines.--The feasibility of this project was 
approved in 2004 and construction is currently underway.
    (2) Alberhill Project.--This project is still in the conceptual 
stage, and its sponsor Elsinore Valley Municipal Water District has not 
submitted information regarding the project
    (3) Santa Rosa Project.--Since August 2006, the City of Santa Rosa 
has submitted: 1) an Engineering Evaluation; 2) an Economic Analysis; 
3) a Financial Feasibility Analysis; and 4) a Draft Environmental 
Impact Report, and other documents; however, a determination of 
feasibility has not yet been possible.
     Oxnard Project.--The City recently submitted a feasibility study 
to Reclamation for this project. A formal review of the study is 
underway.
    (4) Projects in H.R. 2614.--Yucaipa: The Yucaipa Valley Water 
District recently provided the necessary information, and on March 26, 
2008, the feasibility study for the Yucaipa project was approved.
     Corona: Reclamation is awaiting submittal of additional 
information. The City of Corona has not provided the requested 
information to date.
    Question 4b. If and when BOR makes a positive feasibility 
determination on any of these projects, will you ensure that the 
Subcommittee is informed?
    Answer. Typically, Reclamation provides feasibility determinations 
via letter to the project sponsors so that they can determine their 
future activities from that point onward. If it is the desire of the 
Committee and the project sponsor, we can share those letters with the 
Committee and have done so upon request in the past.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

  Statement of the Rancho California Water District (RCWD), Riverside 
                        County, CA, on H.R. 1725
    H.R. 1725, Rancho California Water District's (RCWD) water 
reclamation project (``Rancho California Water District Southern 
Riverside County Recycled/Non-Potable Distribution Facilities and 
Demineralization/Desalination Recycled Water Treatment and Reclamation 
Facility Project'') will substantially expand the use of recycled and 
raw water in Riverside County, California. This project is vital to 
Southern California and will impact water supplies in all the Western 
states. RCWD provides water supply, wastewater collection and 
treatment, and water recycling services to over 110,000 businesses and 
individual customers in an area encompassing 160 square miles in one of 
the nation's most rapidly growing areas. Riverside County--where RCWD 
is located--is the third fastest growing county in the nation. RCWD's 
service area includes the Cities of Temecula, portions of the City of 
Murrieta and unincorporated portions of Southwest Riverside County. The 
Cities of Temecula and Murrieta, alone, respectively experienced a 15 
percent growth rate in 2006.
    Due to the ongoing growth in Southwest Riverside County, total 
demands for RCWD's service area are estimated to rise to almost double 
the current demand by the year 2050. For this reason, and the ever-
increasing demand on the California Bay Delta and the Colorado River 
systems, implementation of creative and innovative projects such as 
RCWD's proposed project is critical to meeting the demands of not only 
RCWD but all of the West.
    We want to thank the Honorable Chairman, Senator Tim Johnson, and 
other Subcommittee Members for holding this hearing to consider H.R. 
1725. We also want to thank the Chairman and Ranking Member for the 
excellent work of their staff, Mike Connor and Josh Johnson, whose 
counsel and advice over the past year has been invaluable to us. We 
also would like to thank Senator Dianne Feinstein and Senator Barbara 
Boxer and their staff for helping us to have this hearing become a 
reality. It is our hope that this hearing will lead us quickly to a 
markup of the bill and ultimate passage by the Senate and a signature 
by the President, so that we can continue to progress on this vital 
project to Southern California, which will impact water supplies in all 
the Western states.
    We feel strongly, that due to the progress RCWD has made to date on 
its project, it merits passage by the Subcommittee, the full Committee 
and the full Senate. Since the introduction of H.R. 1725 in early 2007, 
it was passed by the full House; and the project received the 
statutorily required positive feasibility determination from the Bureau 
of Reclamation in November 2007. RCWD is currently working with the 
local Bureau of Reclamation to complete National Environment Policy Act 
(NEPA) and California Environmental Quality Act (CEQA) requirements, 
which will be completed by the end of 2008, and for which funding was 
received in the fiscal year 2008 Omnibus Appropriations bill. RCWD 
already has exceeded the required local 50 percent match for those 
funds. Moreover, RCWD--having completed study and design of the first 
phase of its project--will begin construction by mid-2008. The Water 
District has requested FY09 appropriations for its project, which makes 
passage of authorization legislation even more crucial.
      passage of h.r. 1725 critical to local and regional economy
    RCWD has maximized the development of its local well water 
resources, groundwater recharge program, recycled water production and 
delivery systems and has implemented an aggressive water conservation 
program which includes a conservation rate structure. RCWD's innovative 
targeted conservation program won statewide recognition in 2007 when it 
was awarded the Clair Hill Environmental award by the Association of 
California Water Agencies.
    Even with all of the above-mentioned efforts, if RCWD takes no 
action, future demands will have to be met with high-cost treated 
imported water creating additional burdens on the California Bay Delta 
and Colorado River systems. In order to meet these future demands in a 
sustainable manner and contribute to State and Federal solutions for 
the California Bay Delta and Colorado systems, RCWD invested in the 
preparation of a regional Integrated Resources Plan (IRP) that was 
completed in October of 2005.
    The regional IRP examined current and future supply issues with a 
long-term perspective that analyzed all possible supply-side and 
demand-side management opportunities. Due to the extensive technical 
nature of the IRP and the quality of the proposed project resulting 
from its completion, the Metropolitan Water District of Southern 
California incorporated the RCWD IRP results into its Integrated Area 
Planning Program.
    RCWD's project meets the ``federal need'' requirement for federal 
water projects in that it has been determined to be financially and 
technically viable and feasible. Further, because the project fills an 
identified treated water shortfall gap for California's Inland Empire 
as identified in the Metropolitan Water District of Southern 
California's recently completed GAP Analysis, it relieves regional 
demands on the State Water and Colorado River systems, creates 
substantial energy savings for the State of California as a whole, 
sustains agriculture and open space for the region, and helps further 
the federal government's goal of increased beneficial reuse of recycled 
water, H.R. 1725 is worthy of passage and the project is worthy of 
federal funding.
    The current water crisis in Southern California, which resulted in 
a 30 percent mandatory water cutback to agricultural customers adds to 
the sense of urgency for the project. Local agriculture, which accounts 
for 47 percent of RCWD's customers, cannot be sustained without a 
reliable and affordable water supply. (RCWD is the largest retail 
agricultural water supplier in the Metropolitan Water District of 
Southern California's service area.) The current water supply 
conditions in the State provide no hope of either a sustainable or 
affordable water supply for Southern California agricultural users. 
RCWD's project, however, provides both an affordable and sustainable 
water supply because the cost per acre foot of water produced from the 
project is at a level that can be sustained by the current water rate 
charged to the agricultural customers of the Rancho California Water 
District.
    The agricultural industry in RCWD's service territory is the major 
employer for members of the local disadvantaged communities. There is a 
high probability that if the project is not implemented in the next 
five years a substantial portion of the local agricultural industry 
will be lost forever. If this occurs, it will create a severe hardship 
to the local disadvantaged and business communities, substantial open 
space and wildlife corridors will be lost, and over $1.4 billion of 
local and regional economic stimulus will needlessly be lost.

          NOTE: Background on the recent 30 percent mandatory 
        agriculture water cutback--the Metropolitan Water District of 
        Southern California Interim Agricultural Water Program (IAWP) 
        provides for the delivery of surplus water for agricultural 
        purposes at a discounted rate. In exchange for the discounted 
        rate, agency participants agree to reduce import water 
        deliveries by 30 percent in times of shortage. In October 2007, 
        MWD published updated IAWP reduction guidelines and called for 
        a mandatory 30 percent reduction, which began January 1, 2008.

    Additionally, there will be a 20 percent rate increase by the 
Metropolitan Water District of Southern California over the next two 
years for all users including agricultural users.
                    project background and benefits
    The project will provide cost-effective and sustainable water 
supplies to meet local demands through 2050. It will free up enough 
treated water to serve 70,000 new households in Southern California by 
converting agricultural demands from treated water to recycled and raw 
water. It will shift 144 cubic feet per second (cfs) peak demand off of 
the Metropolitan Water District of Southern California's treated water 
system. It will create the ability beneficially to reuse 16,000 acre 
feet (AF)/year of recycled water, which will relieve demands on the 
statewide system (California Bay Delta and Colorado River). (One AF of 
water equates to approximately 326,000 gallons or enough water to 
supply two families for over one year.)
    The project will increase the sustainability of Southern Riverside 
County's avocado, citrus and wine industries. These agricultural 
industries add exponentially to the regional economy and provide 
environmental benefits as they contribute over $1.4 billion annually, 
employ over 150,000 people in Riverside County and preserve open space. 
In addition, the agricultural industry contributes positively to the 
environment as avocado trees produce approximately 185 million pounds 
of oxygen and absorb 7.1 million pounds of pollutants in the air 
annually, including 2.8 million pounds of ozone and 2.1 million pounds 
of particles.
    The project also will enable RCWD to retain 10,000 AF/year of 
additional Colorado River and California Bay Delta water for use during 
peak, traditionally high cost recycled and raw water demand months, by 
storing this water in low demand/high supply winter periods. The 
project will save the Water District $200/AF and will reduce energy 
costs expended for the pumping of imported water by approximately $1.5 
million annually and for pumping recycled water out of the watershed by 
approximately $1.3 million annually.
    RCWD's project will provide numerous environmental benefits such as 
reducing the carbon footprint by eliminating emissions by 4.9 million 
pounds/year and reducing energy use and costs by $3 million/year, 
alleviating substantial stress on California's severely strained energy 
system. Additionally, the project will reduce energy demand by 9,765 
Kilowatts per hour by reducing pumping costs for diverting treated 
wastewater that currently is being pumped out of the basin.
     united states bureau of reclamation feasibility determination
    Significantly, the project already received a positive feasibility 
determination by the Bureau of Reclamation in November 2007, which 
declared the project technically and economically feasible. To 
facilitate that positive determination, in May 2007, RCWD--in 
cooperation with Eastern Municipal Water District (EMWD) and Western 
Municipal Water District (WMWD)--completed a $430,000 twelve-month 
feasibility study which insured viability of the project. As noted, the 
results of the RCWD feasibility study facilitated the Bureau of 
Reclamation's finding that the RCWD feasibility study met the Bureau's 
``Directives and Standards'' for feasibility studies and its official 
positive feasibility determination.
             rcwd may 2007 joint feasibility study results
    RCWD's feasibility study determined that it is technically and 
economically feasible for RCWD to demineralize wastewater and convey 
the demineralized and raw imported water to agricultural areas, through 
the construction of new pumping, piping, and storage infrastructure in 
order to replace the current use of costly, imported potable/treated 
water for these demands. The study also examined facilitating 
additional storage in Vail Lake to capture otherwise lost winter flows 
for high demand summer use. Over forty project alternatives were 
considered, before arriving at the final project recommendation.
                         status of the project
    RCWD completed the study and design of the first phase of the 
project in early 2008 and is slated to begin construction by mid-2008. 
The required regional and federal processes are well underway. RCWD is 
working with the Bureau of Reclamation on California Environmental 
Quality Act (CEQA) and National Environment Policy Act (NEPA) 
requirements, which will be completed by the end of 2008.
                      regional and federal support
    As a demonstration of its regional support and the federal need for 
RCWD's project, it was selected as a Tier I priority under the 
Metropolitan Water District of Southern California's Official 
Integrated Area Study, which stated, ``This project is considered to be 
highly adaptable, low risk, and has excellent overall benefits.'' The 
project also was approved by California's Proposition 50 Integrated 
Regional Water Management Plan and is expected to receive funding under 
California's Proposition 84 Integrated Regional Water Management Plan, 
the latter of which process is currently underway.
    The project received $123,000 in the Fiscal Year 2008 Omnibus 
Appropriations bill, which is being used with the local Bureau of 
Reclamation to complete CEQA and NEPA requirements. RCWD has already 
provided over the required 50 percent local match by contributing over 
$200,000 toward this effort.
    The project is enthusiastically supported by numerous regional and 
local entities including but not limited to Riverside County; the 
cities of Temecula and Murrieta; Metropolitan Water District of 
Southern California, the major purveyor of water to Southern 
California; The Nature Conservancy; the California Avocado Commission, 
which serves 6,500 grower members; Sunkist Growers; Eastern Municipal 
Water District; Western Municipal Water District; the Santa Ana 
Watershed Project Authority, which includes the five largest water 
agencies in the Santa Ana River Watershed (Inland Empire Utilities 
Agency, Orange County Water District, San Bernardino Valley Municipal 
Water District, Eastern Municipal Water District and Western Municipal 
Water District); and McMillan Farm Management Company, an agribusiness 
that operates over 1,500 acres of avocados and citrus in RCWD's service 
area and contributes approximately $20 million to the local economy. 
(Letters of support have been sent to RCWD's California congressional 
delegation from these organizations and can be provided to Energy 
Committee Members upon request.)
    RCWD's Fiscal Year 2009 (FY09) $2 million appropriations request 
for the project was included in Riverside County and the City of 
Temecula's FY09 Priority Lists as a project of regional importance. 
Both the county and the city asked the appropriate California 
congressional delegation Members to support RCWD's FY09 federal funding 
request.
        total project cost and post-implementation cost savings
    The total project cost is currently estimated at $141 million. (It 
has been reduced to this amount through cost offsets.) H.R. 1725--under 
consideration by this Committee--will authorize the statutory limit of 
$20 million for Title XVI water reclamation projects or only 14 percent 
of the total cost of the project. Local funds will provide the 
remaining $121 million or 86 percent of the total cost of the project. 
(RCWD is expecting to receive $4 million in California Proposition 84 
Integrated Regional Water Management Plan funding.)
    The project will save the Water District $200/AF. When implemented, 
it is estimated that the project will produce a gross savings of $789 
million in purchased water costs over the 30-year life of the project. 
When the capital costs of the project are netted against the purchase 
water savings, the project produces a significant net savings (NPV) of 
$83 million over its lifetime.
                    economic benefits of the project
Reduces Risk of Losing Critical Agricultural Industry

  <bullet> Industry contributes $1.4 billion annually to Riverside 
        County
  <bullet> Industry directly employs 150,000 people in Riverside County
  <bullet> Agriculture processing contributes 4,000 additional jobs to 
        the County
  <bullet> Agriculture processing contributes $7 million annually to 
        Riverside County
  <bullet> Avocado trees in RCWD's service area produce approximately 
        185 million pounds of oxygen each year
  <bullet> Avocado trees also absorb approximately 7.1 million pounds 
        of pollutants from the air each year including 2.8 million 
        pounds of ozone and 2.1 million pounds of particles
          energy savings and other benefits to the environment
    As the western United States continue to battle rising energy costs 
and continued risk of brownouts and blackouts, finding ways to reduce 
energy demand continues to be a critical component of any federal 
project. Implementing RCWD's water reclamation project not only will 
free up substantial amounts of water for other users in California, but 
will also significantly lower energy demands, bringing with it the 
resultant benefits.

  <bullet> Lowers greenhouse gas emissions by reducing the electrical 
        energy associated with conveying imported water to the region, 
        treating imported water, and exporting recycled water out of 
        the basin.
  <bullet> Reduces energy demand by 9,765 Kilowatts per hour by 
        reducing pumping costs for diverting treated wastewater that 
        currently is being pumped out of the basin
  <bullet> Saves $3 million in annual energy costs
  <bullet> Reduces carbon emissions by 4.9 million pounds per year
  <bullet> Sustains open space
                           project specifics
    The project consists of three distinct, but integrated components, 
which will provide vast regional and federal benefits. The estimated 
total project cost is $141 million.
      component one--expand local recycled and raw water resources
    Construct a 48-inch pipeline to transport raw water from MWD's 
aqueduct system for storage in Vail Lake. By storing this water in low 
demand/high supply winter periods, up to 10,000 AF/year of additional 
Colorado River and California Bay Delta water can be retained for use 
during peak recycled and raw water demand months. Water cost will be 
$230-$330/AF, saving the district approximately $200/AF. Estimated 
project component cost: $28 million.
component two--convert east side agriculture to a combined recycled and 
                            raw water system
    Convert Water District's east side agricultural delivery system 
(vineyard and citrus) to a combined recycled and raw water system to 
allow recycled water, untreated water stored in Vail lake, or raw water 
purchased from MWD to be used for agricultural irrigation. Build 
delivery system to transport water from Vail Lake to convert wine and 
citrus agriculture to non-potable water and link east side non-potable 
system to recycled water. Water cost will be $230-$330/AF, will save 
the water district approximately $200/AF for water treatment, and will 
relieve peak demand on MWD's regional treatment facilities, the 
Colorado River and California Bay Delta systems.(Will relieve 5K AF/
year of treated water demands.) Estimated project component cost: $57 
million.
 component three--demineralize / desalinate recycled water and convert 
                west side agriculture to recycled system
    Construct demineralization/desalination plant to lower total 
dissolved solids (TDS) levels of recycled water from EMWD's wastewater 
reclamation facility below 500 parts TDS and convert Water District's 
west side agricultural delivery system to a non-potable system. 
Lowering the TDS limits below 500 parts TDS will allow RCWD to utilize 
recycled water which currently is pumped to dispose of in the Santa Ana 
River. RCWD currently cannot reuse this water because the State Water 
Control Board limits of 500 parts TDS are below the wastewater plant's 
recycled water level of 750 parts TDS. Running 50 percent of this water 
through a micro filtration and reverse osmosis process will lower the 
TDS levels below the current basin standard of 500 parts TDS and will 
allow up to 16,000 AF of recycled water to be retained in the basin 
annually for reuse. In addition to creating a new beneficial reuse of 
recycled water, this project component will provide a non-
interruptible, sustainable supply of water to our agricultural 
customers. Estimated project component cost: $56 million.
                                 ______
                                 
                                    Tucson Audubon Society,
                                        Tucson, AZ, April 22, 2008.
Hon. Tim Johnson,
Chairman, Water and Power Subcommittee.
    Dear Sir: Tucson Audubon Society is a 501(c) 3 non-profit 
environmental organization based in Tucson Arizona, serving residents 
of eastern Pima County and Santa Cruz County. Established in 1949, 
Tucson Audubon partners closely with government agencies and other NGOs 
to promote environmental education, conservation, and outdoor 
recreation.
    Tucson Audubon supports HR1503 and the April 8, 2008 testimony of 
Michael Gritzuk, Director of Pima County Regional Wastewater 
Reclamation Department, on behalf of the bill that would establish 
water reclamation and environmental restoration in the Avra Valley/
Black Wash area of Pima County.
    Riparian habitat is extremely important for wildlife in our region. 
We have lost much of our former riparian habitat through overgrazing, 
erosion and groundwater pumping. Many species of conservation concern 
are dwindling due to these losses.
    Tucson Audubon and its partners work to conserve water and to 
restore habitats, using water harvesting techniques, and sometimes with 
the use of reclaimed wastewater. Creating new riparian and wetland 
habitat is an important step toward redressing habitat losses. 
Wastewater treatment plants offer particular opportunities for creating 
new riparian habitat.
    Pima County Regional Wastewater Reclamation Department (PCRWRD) is 
particularly innovative in providing reclaimed water for wildlife 
habitat and incorporating wildlife habitat into new wastewater plant 
designs. PCRWRD has responded to a key recommendation in the Sonoran 
Desert Conservation Plan to utilize reclaimed water for habitat 
restoration projects. The Sonoran Desert Conservation Plan is a long 
term vision for protecting the heritage and natural resources of the 
west in Pima County.
    The Regional Wastewater Reclamation Department is sensitive too to 
the wildlife watching industry, which has an annual total economic 
effect of approximately $1.5 billion in Arizona. By proactively 
incorporating facilities for bird watchers and other wildlife watchers 
to the habitats created at their plant sites, the Department adds to 
the value of our region to wildlife tourists.
    In addition, by restoring the riparian habitats to critical to 
wildlife, the Department is adding to the quality of life for the 
people that live nearby.
    Tucson Audubon supports HR1503 and the April 8, 2008 testimony of 
Michael Gritzuk, Director of Pima County Regional Wastewater 
Reclamation Department, on behalf of the bill.
            Yours Sincerely,
                                             Dr Paul Green,
                                                Executive Director.
                                 ______
                                 
  Statement of Michael Gritzuk, P.E., Director, Pima County Regional 
      Wastewater Reclamation Department, Tucson, AZ, on H.R. 1503
    Mr. Chairman and Members of the Subcommittee, Pima County, Arizona 
is submitting this testimony for the record to the Senate Committee on 
Energy and Natural Resources, Subcommittee on Water and Power on April 
8, 2008 regarding ``HR 1503, The Avra/Black Wash Reclamation and 
Riparian Restoration Project''. My name is Michael Gritzuk and I am the 
Director of the Pima County Regional Wastewater Reclamation Department 
in Pima County, Arizona which is the lead agency for this Project.
    Pima County, Arizona would like to solicit the support of the 
Committee for the establishment of the water reclamation and 
environmental restoration project contained in HR 1503 for the Avra 
Valley/Black Wash area of Pima County, a predominantly rural area with 
exceptional environmental values, which is undergoing rapid population 
growth and corresponding wastewater infrastructure expansion. This 
project is located at the current Avra Valley Water Reclamation 
Facility site, in the northerly portion of Avra Valley adjacent to the 
Black Wash riparian area. Project stakeholders with whom we have 
consulted have included the U.S. Bureau of Reclamation, the Pima County 
Regional Flood Control District, U.S. Fish and Wildlife Service, Tucson 
Audubon Society, City of Tucson Water Department and the Pima County 
Natural Resources, Parks and Recreation Department.
    To understand the importance of this project, I would like to tell 
you about Pima County's environmental initiatives and the Department's 
efforts to meet the needs of our growing population in an 
environmentally sensitive manner. Pima County, Arizona, is located in 
the southernmost part of Arizona among the magnificent mountains and 
valleys of the Sonoran Desert. Pima County has a climate typical to the 
lower desert elevations in the American Southwest with only 8 -12 
inches of annual rainfall.
    Pima County includes a central metropolitan area containing the 
City of Tucson, City of South Tucson, Town of Oro Valley, Town of 
Marana, Town of Sahuarita; a substantial urban population in the 
unincorporated areas of the County adjacent to these municipalities; 
significant amounts of rural ranch and farm lands; and the Pasqua Yaqui 
Tribe and the Tohono O'odham Nation (whose lands cover a large portion 
of Western Pima County).
    The population of Pima County reached one million in January 2007, 
and is projected to grow significantly over the next 20 years. Official 
growth projections are 9 percent between 2010 and 2015, 10 percent 
between 2015 and 2020, 10 percent between 2020 and 2025, and 9 percent 
between 2025 and 2030.
    These significant projected increases in population demonstrate 
that Pima County is feeling the growth pressures which have made 
Arizona one of the fastest growing states in the Nation with 
significant statewide issues regarding water availability, local and 
regional transportation infrastructure, and wastewater conveyance and 
treatment capacity. In the mid-1980's, Arizona instituted the Active 
Management Area Program, which established a goal of safe-yield for 
water demand and use within the state's major metropolitan areas. This 
concept is now being expanded to the rural areas of the state, an even 
more necessary measure given the current drought conditions in the 
Southwest. In this water-scarce environment, reuse, recharge and 
environmental restoration have become increasingly important uses for 
high quality reclaimed water.
    To manage the critical issues of accommodating a steadily 
increasing population and preserving environmentally sensitive areas 
for future generations to enjoy, Pima County has developed and begun to 
implement its award-winning Sonoran Desert Conservation Plan over the 
last decade.
    The Sonoran Desert Conservation Plan, which received the American 
Planning Association's 2002 Outstanding Planning Award, covers a 3.9 
million-acre portion of the Sonoran Desert ecosystem in Pima County, 
Arizona. The Pima County Board of Supervisors and Administrator 
initiated the Plan in 1998 in response to conservation needs for rare 
animal and plant species, most significantly the federally listed 
cactus ferruginous pygmy owl. The purpose of the Plan is to ensure the 
long-term protection of ``the heritage and natural resources of the 
west in Pima County.'' The Sonoran Desert Conservation Plan contains 
six areas of focus: Protection of Critical Habitat; Biological 
Corridors; and Mountain Parks; Riparian Restoration; Historic and 
Cultural Preservation and Ranch Land Conservation. Over 205 reports 
have been produced, including a mapped conservation reserve design that 
prioritizes the protection of the region's biodiversity by applying the 
six areas of focus above.
    The Pima County Board of Supervisors has led this effort, 
coordinating with 12 major government land managers and about 40 
community groups. In December 2001, Pima County incorporated the 
Sonoran Desert Conservation Plan into its comprehensive land use plan. 
The comprehensive land use plan addresses many problems caused by urban 
sprawl, such as a declining tax base, land consumption, water 
availability, and a loss of cultural identity. It prescribes the 
Sonoran Desert Conservation Plan to address natural and cultural 
resources protection and incorporates the conservation reserve design 
into a Conservation Lands System categorizing future land use in all 
unincorporated lands in the planning area. The land use categories in 
the Conservation Lands System include: Important Riparian Areas, 
Biological Core Areas, Scientific Research Management Areas, Multiple 
Use Management Areas, Recovery Management Areas, Agriculture within 
Recovery Management Areas and Critical Landscape Connections.
    The planning process generated a series of policy changes and 
conservation achievements. Over the years, a series of ordinances have 
been passed that seek to protect biological resources while promoting 
better quality urban design. Ordinances include buffer overlay zones 
around biological preserves, hillside development restrictions, 
riparian habitat mitigation, native plant protection, conservation 
subdivisions, big box store limitations and home design standards. More 
significantly to this project, the Sonoran Desert Conservation Plan 
also recommends effluent utilization for habitat restoration projects.
    The Pima County Wastewater Reclamation Department, as a self-
sustaining utility enterprise of the County, has a dual mandate to (1) 
provide regional wastewater conveyance, treatment and reclamation 
facilities for the public health and welfare of the community and (2) 
implement the environmental land use and conservation policies of the 
Sonoran Desert Conservation Plan. To accomplish these goals, the 
Department operates three major metropolitan wastewater treatment and 
reclamation facilities and eight smaller subregional reclamation 
facilities spread throughout the 2,500 square mile service area of 
Eastern Pima County which treat a total of 69 million gallons of 
wastewater per day (MGD). The Department also maintains a rigorous 
operations and maintenance and rehabilitation program for its 3,300 
linear miles of sewer conveyance lines. The Department has been 
innovative and aggressive in confronting the challenges of protecting 
the public health and safety while producing a high quality reclaimed 
water product for multiple uses within the community, including reuse 
on parks and school grounds, recharge to the aquifer and restoration of 
environmentally sensitive areas.
    As part of its innovative program, the Department also managed the 
Arid West Water Quality Research Project, from 1995 to 2007, which was 
a cooperative regional approach to water quality issues in the Arid 
West funded by the U.S. Environmental Protection Agency. Pima County 
also constructed the Kino Ecosystem Restoration Project in cooperation 
with the U.S. Army Corps of Engineers. This Project captures and 
harvests storm water for use on the turf facilities of the spring 
training complex for the Arizona Diamondbacks, Colorado Rockies and 
Chicago White Sox. The Department is currently implementing (in 
coordination with the Arizona Department of Environmental Quality) a 
$1+ billion program to optimize advanced treatment, odor control and 
bio-solids handling at its major metropolitan treatment facilities, 
including the construction of a new 32 million gallon per day (MGD) 
Water Reclamation Campus. The new water reclamation campus will provide 
reclaimed water for a proposed major community sports and park complex 
planned to be constructed adjacent to this campus. The sports and park 
complex would include multiple softball, baseball and soccer fields, as 
well as park facilities and ecosystem enhancement and trails along the 
Santa Cruz River. This will be in addition to the existing community 
water reclamation system which provides irrigation for local golf 
courses, city and county parks and street medians.
    In addition to these accomplishments, the Department faces 
continuing challenges in expanding and upgrading its rural treatment 
facilities to provide needed sewer capacity in time to meet the demands 
of growth while providing a sustainable environment for the new 
facilities in the adjacent area.
    The Department recently upgraded the Green Valley Water Reclamation 
Facility (WRF), which serves a major retirement community south of the 
Tucson metropolitan area. The existing facility now produces Class A+ 
effluent which is then sold for reuse to an adjacent golf course resort 
complex. This integrated and sustainable approach to water reclamation 
has enabled the community to conserve 2 million gallons per day of 
groundwater resources while providing a valuable recreational amenity 
to the Green Valley community.
    A similar opportunity exists 40 miles to the northwest of Green 
Valley in the Avra Valley/Black Wash area. Formerly a highly rural and 
ranching area, this valley is bordered on the east by the Tucson 
Mountain Regional Park, which includes the famous Old Tucson movie set 
and the internationally recognized Arizona-Sonora Desert Museum and the 
Saguaro National Monument, and on the southern and western boundaries 
by ranch lands, grasslands, the Tohono O'odham Nation and the Pascua 
Yaqui Tribal lands.
    The Department currently operates a wastewater treatment facility 
utilizing percolation and evaporation ponds for this area--the Avra 
Valley Water Reclamation Facility (WRF). The Pima County Board of 
Supervisors has developed the Southwest Area Infrastructure Plan to 
accommodate the rapid growth in this area by establishing urban 
densities in the center of Avra Valley while maintaining the rural 
character and open space on the Valley's perimeters, thus preserving 
the magnificent panoramas of the rugged Sonoran Desert landscape for 
future generations.
    To accomplish the wastewater functions of this Plan, the Department 
intends to upgrade and expand the existing Avra Valley WRF, currently 
permitted for 2.2 MGD, to a 4.0 MGD facility with advanced ultra-violet 
disinfection and filtration which will produce very high quality Class 
A+ water suitable for reuse, recharge and environmental restoration. 
Further, the additional percolation ponds required for the expanded 
facility will be designed to enhance the habitat and environmental 
benefit to the area. However, even in its present configuration, the 
Avra Valley WRF is already well known to the regional and national 
birding community due to its unique juxtaposition of desert upland 
habitat and ample surface water in the percolation ponds and its 
proximity to the Black Wash riparian area. Sonoran Desert bird species, 
such as the Roadrunner, Gambel's Quail, Cactus Wren, Curved-bill 
Thrasher, White-Wing Doves and Harris's Hawk can be seen on and 
adjacent to the Avra Valley Facility. Priority vulnerable species using 
the area include the Bell's Vireo, Rufous-winged Sparrow, and Abert's 
Towhee. Shorebirds and waterfowl including herons, egrets, sandpipers, 
glossy ibis, and other migratory birds are found in and around the 
ponds (as well the occasional pelican or seagull blown off-course by 
the summer monsoon storms). In addition to the bird species, the 
adjacent Black Wash area also provides valuable breeding areas for 
desert amphibians as well as habitat for jack rabbits, javelina, deer, 
snakes, lizards, and Gila monsters.
    In order to continue and enhance these environmental benefits of 
the Facility, the Department proposes to create a multi-purpose 
facility incorporating wastewater treatment and watershed reclamation, 
habitat conservation, education and recreation, including wildlife 
watching with interpretative and hiking trails as part of the site 
expansion. This will establish the area as an educational site for the 
sustainable use of water resources, habitat conservation and 
restoration that is consistent with the Sonoran Desert Conservation 
Plan. The existing percolation ponds would be rehabilitated to better 
perform their technical function while still retaining their usefulness 
as habitats for waterfowl and shorebirds. As noted previously, the 
Department will also create additional percolation basins which would 
be designed in a more natural pond-like configuration with trails for 
birders and hikers to provide year-round access. Thus, the expansion of 
the habitat will be coupled with an expansion of the viewing 
opportunities for visitors and yet maintain the functional benefit of 
the ponds for the Avra Valley WRF. Further, advanced treatment with 
ultra-violet disinfection and filtration facilities will be installed 
for the new plant capacity of 4.0 MGD which will continue to keep the 
effluent quality and value consistently high. Additional features for 
visitors will include a public restroom and signage along the birding 
trails for wildlife education and information. In addition to these 
features, significant environmental restoration is proposed around the 
perimeters of the Facility as well as a continuing effort to preserve 
and enhance the riparian environment in the Black Wash which runs along 
the western edge of the WRF.
    The total Project costs for the 4.0 MGD water reclamation and 
environmental restoration project are now estimated at $56 million 
(2008 dollars). The federal support of $14 million requested in HR 1503 
would be utilized for the environmental features and water quality 
treatment processes discussed in this testimony. All the water 
resources for this project are under the control of Pima County as an 
integral part of the wastewater treatment process and maintenance of 
facility site.
    Finally, Mr. Chairman and Members of the Committee, in response to 
Deputy Commissioner's Kris Polly's testimony on H.R. 1503, Pima County 
looks forward to working with Bureau of Reclamation staff to conduct 
the required feasibility studies. We want to move forward together with 
the Bureau in this unique opportunity to utilize reclaimed water to 
achieve the ecosystem restoration and habitat enhancement goals of the 
Sonoran Desert Conservation Plan through the Title XVI Program.
    On behalf of Pima County, I thank the Committee for the opportunity 
to provide this testimony.
                                 ______
                                 
                                        City of Santa Rosa,
                                                     April 4, 2008.

    Dear Chairman Bingaman: The City of Santa Rosa appreciates the 
opportunity to submit written testimony to your committee regarding 
H.R. 716--the Santa Rosa Urban Reuse Plan Act.
    The Santa Rosa Urban Reuse Plan is a model for reuse of treated 
wastewater for landscape irrigation. The project is especially 
important in a region that remains semi arid for six months of the year 
and where droughts pose a genuine threat to both human and protected/
threatened salmonid populations. Using recycled water for landscape 
irrigation conserves valuable fresh water for not only human 
consumption but also for watershed preservation and enhancement.
                               background
    The Santa Rosa Regional Wastewater System serves the Northern 
California cities of Santa Rosa, Cotati, Rohnert Park, Sebastopol and 
parts of unincorporated Sonoma County, serving a population that 
exceeds 225,000. This system recycles over 80 percent of its tertiary-
treated water to: 1) irrigate over 6,400 acres of farmlands, vineyards 
and public and private landscaping; and 2) inject into the Geysers 
geothermal fields to recharge natural geysers in order to produce green 
electricity. The remainder of the water is seasonally discharged into 
the Russian River.
    Santa Rosa's reuse system has been developed over the last 40 years 
and includes cutting edge projects, such as the public-private 
partnership to use recycled water to produce green power at the 
Geysers. The City is an experienced urban water recycler with programs 
already in place at two city parks, a golf course and Sonoma State 
University. As committed water recyclers, the City has invested over 
$350 million in water treatment and re-use projects over the years.
             major goals of the santa rosa urban reuse plan
  <bullet> Minimize the impacts to the Russian River (a vital migratory 
        corridor for three federally protected salmon species by 
        meeting sub-regional growth requirements with decreased water 
        diversions and a reduction in required seasonal recycled water 
        discharge.
  <bullet> Reduce irrigation of farmland listed as high quality habitat 
        for four endangered species, including the California Tiger 
        Salamander.
  <bullet> Use all recycled water produced by a growing population to 
        irrigate parks, schools, roadway median strips, cemeteries, new 
        commercial and residential developments, and golf courses.
  <bullet> Assist the City in meeting hot weather landscape irrigation 
        demands without increasing diversion of potable water from the 
        Russian River.
  <bullet> Provide flexibility to accommodate the use of recycled water 
        made available by neighboring agencies.
                         environmental benefits
    The main conveyance of regional water supplies is the Russian 
River, a 115-mile coastal stream that is a migration corridor for 
threatened salmon and steelhead. The Urban Reuse Project--and similar 
projects that will follow in its footstep--will result in fewer 
withdrawals from the River and its tributaries and safeguard vital 
habitat for threatened steelhead and coho salmon.
    The Project will also help restore habitat for the endangered 
California Tiger Salamander and three endangered plant species by 
allowing formerly irrigated farmland to return to vernal pools, and in 
some cases, providing recycled water for seasonal wetlands.
    Finally, the project will allow winter water production to be used 
for summer urban irrigation uses and reduce recycled water discharges 
to the Russian River.
                      water conservation benefits
    Most of the City of Santa Rosa's potable water is provided under 
contract by the Sonoma County Water Agency (SCWA), which withdraws 
water from the Russian River. For three of the past six years, at the 
request of the SCWA, the State Water Resources Control Board has issued 
a Temporary Urgency Flow Modification Order for the Russian River, 
reducing flows from an upriver dam and impacting local water 
availability. The combination of regulatory requirements needed to 
protect threatened species and warming climate trends increase the 
likelihood that these ``temporary'' flow reductions may continue to 
occur frequently or become permanent.
    Even in ``normal'' weather years, the City of Santa Rosa, 
experiences water supply problems on especially hot days, due to high 
urban irrigation demands and a constrained delivery system operated by 
the SCWA.
    By replacing potable water used for urban landscape irrigation with 
recycled water, the Santa Rosa Urban Reuse Project will significantly 
reduce or eliminate the impacts of potential fresh water shortages.
                       project elements and costs
    The project will provide recycled water to 1,000 of the largest 
water users in the City, including parks, schools, fair grounds, 
industrial and commercial facilities. The project will provide 1,000 
million gallons of recycled water (3,000 acre-feet) per year for urban 
irrigation, avoiding both fresh water withdrawals and treated 
wastewater discharges of this volume into the Russian River. The total 
projected costs are over $100 million dollars. The City's intent is to 
have the Bureau of Reclamation review the feasibility study, the 
completed environmental documents before moving ahead with the project. 
It was our understanding that the Bureau would be charging a fee for 
the initial review. We did not want to proceed with that level of 
review until we knew if we would be getting Federal support with the 
project. If the Committee reports the Bill, then the City will be 
forwarding our documentation to the Bureau.
    The City encourages you to approve H.R 716 Santa Rosa Urban Reuse 
Project. If authorized, the City will continue to look at the cost 
benefit of the Urban Reuse Project as well other options to creatively 
reuse our recycled water resource.
    We are very appreciative of the support we have received for this 
project from our Representative, Ms. Lynn Woolsey, and her staff. Her 
interest and encouragement have been important to the City's interest 
in pursuing this legislative course.
    Thank you for your consideration. The City is happy to answer any 
additional questions the committee might have during its review.
                                summary
    The Santa Rosa Urban Reuse Plan/Project consists of the following 
elements and costs:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    H.R. 716 would provide an authorization for up to $20 million of 
the project cost but not more than 25 percent of total project cost, 
with the remainder expected to be local funding.
                             project status
    An Environmental Impact Report has been completed and certified, 
and preliminary design work has been completed. With the appropriation 
of federal funds, final design and construction can begin. With federal 
appropriations, the first phase of the project could be completed, and 
water delivered to customers by 2010. As demand grows over the next 5 
to 7 years, the second and final phase of the project would be 
completed. The City has a financing plan to cover the local (75-
percent) share of the Project cost. The first phase of the financing 
plan will be implemented in summer 2007; bonds will be sold to finance 
final design phase.
                               conclusion
    In conclusion I would like to reiterate the importance of this 
regional project which benefits water supply but also federally 
protected salmon populations and the protected California Tiger 
Salamander, while enhancing the Russian River Watershed. The City of 
Santa Rosa's Sub-regional Wastewater System looks forward to continuing 
to raise the bar with respect to conservation and recycling and the 
approval of H.R. 716 should help ensure the viability of the Santa Rosa 
Urban Reuse Plan as a model recycling program.
    Senator Bingaman and members of the Committee, the City of Santa 
Rosa and I appreciate your interest in the long term sustainability of 
the water supply, environmental and species protection in this 
important watershed.
            Thank you,
                                             Bob Blanchard,
                                                             Mayor.
    *Map of Urban Reuse Plan Area has been retained in subcommittee 
files.
                                 ______
                                 
 Statement of Ronald Young, General Manager, Elsinore Valley Municipal 
                       Water District, on H.R. 31
    Chairman Johnson, Members of the Subcommittee, my name is Ron 
Young, and I serve as the General Manager of the Elsinore Valley 
Municipal Water District in Lake Elsinore, California. Thank you for 
the opportunity to submit written testimony to the Subcommittee 
regarding EVMWD's comprehensive plans for water recycling within two of 
the fastest growing communities within our very large service area 
along the I-15 corridor in Western Riverside County, California.
    I also want to thank Senator Diane Feinstein for recommending HR 31 
be given a hearing. Senator Feinstein and her staff have always been 
very helpful and understood the importance of this legislation to our 
region.
                               background
    Elsinore Valley Municipal Water District (EVMWD) is located in the 
southeastern portion of Riverside County and borders the eastern 
boundary of Orange County. EVMWD's jurisdiction includes the City of 
Lake Elsinore, the City of Canyon Lake, a portion of the City of 
Murrieta, unincorporated areas of the County of Riverside, and a 
portion of the Cleveland National Forest. EVMWD provides potable water 
service, wastewater treatment and disposal, and recycled water to 
customers within its jurisdiction. Currently, EVWMD has approximately 
38,000 water service connections, most of which also include wastewater 
connections. EVMWD is a sub-agency of the Western Municipal Water 
District, a member agency of the Metropolitan Water District of 
Southern California.
    Water demand within EVMWD's service area has also been growing 
rapidly due to new development and population growth. EVMWD expects 
water demand to double by 2030. As a result, EVMWD seeks ways to use 
recycled water to offset limited sources of potable water supply. EVMWD 
has the opportunity to develop the Wildomar Recycled Water program and 
the Alberhill Wastewater Reclamation Facilities. These two projects 
will ultimately create approximately 4,500 acre feet a year in new 
water; enough for 32,000 new people.
    This new water supply is even more significant when we consider 
that last year the City of Lake Elsinore was the third fastest growing 
city in Riverside County and Riverside County was the second fastest 
growing county in the Nation.
    The incentive for using recycled water is to conserve a precious 
local water source and substantially lower our customers' water costs. 
The Lake Elsinore Unified School District will be one of the biggest 
beneficiaries of this project. We expect the project could save the 
school district over two hundred thousand dollars a year in water 
costs. Given the current projected cuts in state funding for schools 
over the next year; this project will help keep teachers in the 
classroom and books on the shelves.
    This project will also benefit Riverside County's newest city, the 
City of Wildomar. The official incorporation date for Wildomar is July 
1st 2008. There are many logistical and financial hurdles for new 
cities to overcome and the cost of water is one of them. However, if 
this bill is approved, EVMWD can begin supplying low cost recycled 
water to all of the City of Wildomar's parks, greenbelts, and pubic 
cemetery.
    Another major user of recycled water in the Wildomar area will be a 
golf course for the Summerly residential development being built by 
John Laing Homes, Inc (JLH). The total cost for this first phase of the 
Wildomar project is approximately $4.9 million. JLH's contribution is 
$2.8 million and EVMWD's cost is approximately $2.1 million.
    This is a key element to the overall Wildomar Recycled Water 
project and to keep this project moving forward, we need Congress to 
commit to funding $4.8 million immediately.
                 unique and immediate regional benefits
    On March 6, EVMWD staff, Wildomar City Councilwoman Elect Marsha 
Swanson, and Lake Elsinore Unified School District representatives met 
with Chris Carillo and James Peterson of Senator Feinstein's California 
staff. In that meeting the water district outlined the following eight 
reasons that make this project so unique.

  <bullet> Nearly 20 percent of California's total energy use is used 
        to move water. This project will save approximately 15 million 
        kWh per year of electricity from reduce imported water.
  <bullet> Every acre foot of recycled water that is generated saves 
        our water district an acre foot of expensive imported water. 
        These two projects combined are estimated to save EVMWD over 
        $2.6 million a year in imported water costs.
  <bullet> Wildomar is the newest city in Riverside County and will 
        benefit greatly from the annual financial savings from using 
        recycled water to irrigate its parks, greenbelts, and public 
        cemetery.
  <bullet> The Lake Elsinore Unified School District has already seen 
        its water bills decrease over $100k a year due to the 
        installation of weather based irrigation controllers provided 
        by our water district. We currently anticipate an additional 
        annual savings of approximately $200k if H.R. 31 is passed.
  <bullet> The feasibility studies with the Bureau of Reclamation have 
        been completed and all design documents and construction plans 
        have been completed; this project can start construction 
        immediately.
  <bullet> To ensure full implementation and success of this project, 
        the cost of customer connections have been figured into the 
        overall cost of the project. Therefore, all 39 large users that 
        have been identified on the map on page six will be converted 
        immediately.
  <bullet> The regional benefits of this project include the 
        cooperation of several different agencies in southwest 
        Riverside County to treat and deliver the recycled water. Along 
        with our partners, Eastern Municipal Water District and Rancho 
        California Water District we represent over 800,000 customers.
  <bullet> One of the most significant aspects of this project is the 
        variety of funding sources committed to building this project. 
        EVMWD has committed $7.4 million, John Laing Homes has provided 
        approximately $2.8 million, and the State of California has 
        provided the water district with a grant for $4 million. Once 
        H.R. 31 is approved, the cost share for this regional project 
        will include $4.8 million from the Federal government for 
        fiscal year 2009.
                    wildomar recycled water project
    EVMWD proposes to implement a Master Plan for a recycled water 
system to serve its southern region. This Wildomar Recycled Water 
project is intended to ultimately deliver 2,429 acre-feet per year (AF/
yr) of recycled water to 34 user sites. (see table 1) Potential users 
include schools, homeowners' associations, parks, a cemetery, a 
nursery, a church, and a stadium. The project would require 
construction of pipelines, pump stations, and reservoirs to distribute 
recycled water.
    Eastern Municipal Water District (EMWD) recently constructed the 
TVRWRF Effluent Disposal Pipeline. This pipeline conveys excess 
effluent from EMWD's wastewater facility in Temecula and RCWD's Santa 
Rosa Water Reclamation Facility (SRWRF) to EMWD's existing 54-inch 
Reach 4 pipeline, which will ultimately discharge effluent in the 
Temescal Wash, which is under the jurisdiction of Region 8, the Santa 
Ana RWQCB.
    EVMWD has purchased the ability to use a portion of the capacity in 
the pipeline as part of a separate agreement with Eastern and Rancho 
involving wastewater treatment of a portion of EVMWD's service area. 
(see map) This agreement allots EVMWD up to 1.5 million gallons a day, 
or 1,680 acre feet per year of recycled water. EVMWD expects to 
wholesale purchase the remaining supply of recycled water from Rancho 
California Water District or Eastern Municipal Water District.
    This project is solely for water development. EVMWD will promote 
this project in the community through established outreach materials 
developed by the District.
    The total project cost for the design, planning, and construction 
of permanent facilities needed to establish recycled water distribution 
for the southern region of EVMWD's service area is estimated at $19 
million. The funding support for this project is needed to match the 
local and state funds that have been given to EVMWD to develop this new 
water supply.
                    alberhill recycled water project
    EVMWD, with the assistance of a $75k state grant, prepared a 
recycled water Facilities Planning Report (FPR) for EVMWD's Alberhill 
Service Area entitled The FPR Alberhill Service Area Recycled Water 
Master Plan. The planning study is focused on providing recycled water 
to potential customers within EVMWD's Alberhill Service Area. Within 
this service area there are several potential sources of recycled 
water, including EVMWD's proposed $38 million Alberhill Wastewater 
Reclamation Facility, which will be implemented in three phases; 1, 2A, 
and 2B.
    Phase 1 includes all existing customers including six developers 
within the proposed Alberhill Community Facilities District (CFD).
    Phase 2A includes the future customer, Pacific Clay, which is a 
proposed development near the Alberhill CFD. The significant recycled 
water demand associated with this development will justify the capital 
costs incurred for the additional facilities.
    Phase 2B includes future customer, the Village Development, which 
is not planned to be constructed until 2019.
    EVMWD is currently completing the preliminary design for the 
Alberhill WRF. Our goal for completing the first phase of the Alberhill 
WRF construction is December 2010. The recent 2005 EVMWD Alberhill 
Water & Wastewater Facilities Phasing Plan indicates that the initial 
capacity for Alberhill WRF is 1.0mgd. The initial 1.0mgd plant will 
need to incorporate 0.5mgd incremental treatment trains to accommodate 
the uncertainties associated with planned developments. The ultimate 
capacity of Alberhill WRF is 5.4mgd.
    EVMWD is looking for a twenty-five percent match from the federal 
government. This funding would be spread over eight years and total 
$9.6 million
                               conclusion
    Water demand within EVMWD's service area has also been growing 
rapidly due to new development and population growth. EVMWD expects 
water demand to double by 2030. As a result, EVMWD seeks ways to use 
recycled water to offset limited sources of potable water supply. EVMWD 
has the opportunity to develop the Wildomar Recycled Water program and 
the Alberhill Wastewater Reclamation Facilities. These two projects 
will create approximately 4,500 acre feet a year in new water. This 
will offset the equivalent demands of about 30,000 residents.
    This new water supply is even more significant when we consider 
that last year the City of Lake Elsinore was the third fastest growing 
city in Riverside County and Riverside County was the second fastest 
growing county in the Nation.
    This rapid growth in residential and commercial development is the 
most opportune and economically feasible time to build recycled water 
uses into these development projects.
    I urge your speedy favorable action on HR 31, so construction of 
these vital recycled water facilities can keep moving forward and EVMWD 
can continue to meet the current and future water demands of its 
customers.
    Thank you for your time and consideration.
                                 ______
                                 
                                          City of Wildomar,
                                                     April 2, 2008.
Hon. Tim Johnson,
U.S. Senate Chairman, Subcommittee on Energy and Natural Resources, 
        Washington, DC.
    Dear Chairman Johnson: I am writing to convey my support for H.R. 
31, the Elsinore Valley Municipal Water District Wastewater and 
Recycled Water Facilities Act of 2007. This legislation overwhelmingly 
passed the House last July, and we encourage the Senate to do the same.
    The Wildomar water recycling project, which would be authorized by 
this legislation, is ready to begin construction and would bring 
immediate benefits to our part of the Inland Empire.
    Wildomar is the newest city in Riverside County and will benefit 
greatly from the annual financial savings from using recycled water to 
irrigate its parks and greenbelts.
    Thank you again, Chairman Johnson for taking the lead on this most 
significant recycled water project for the Elsinore Valley Municipal 
Water District. Federal funding support for this project is vital and 
necessary to match the local and state funds that have been given to 
EVMWD to develop this new water supply.
            Sincerely,
                                               Bob Cashman,
                                                       Mayor Elect.
                                 ______
                                 
          Elsinore Valley Municipal Water District, on H.R. 31
Federal Request.--$14.4 Million
The Benefit.--An Energy-Efficient Alternative
  <bullet> 1.5 billion gallons of `new' water created
  <bullet> Energy for one acre-foot of imported water costs 
        approximately $880, while the energy for one acre-foot of 
        recycled water costs $470
  <bullet> 20% of all energy consumed in California is used moving 
        water
  <bullet> Water recycling is one of the most innovative, cost-
        effective and promising solutions to conserve water and energy
The Need.--Reduced Reliance on Imported Water & Conserve Local Supplies
  <bullet> EVMWD serves the 3rd fastest growing area in Riverside 
        County, which is the 2nd fastest growing county in the nation
  <bullet> 33% pumping cutbacks to the Delta will reduce the 
        reliability and availability of imported water supplies (Judge 
        Wanger Decision)
  <bullet> Prolonged droughts, unreliable water supplies and aging 
        infrastructure will become southern California's next major 
        crisis
                           proposed projects
Wildomar Recycled Water Project: Distribution Facilities
            Total Project Cost: $19 million
    Project Funding:

  <bullet> $4 million from state grant
  <bullet> $4.8 million from Congress
  <bullet> 7.4 million EVMWD contribution
  <bullet> 2.8 million Local Contribution
Alberhill Recycled Water Project: New Treatment & Distribution 
        Facilities
            Total Project Cost: $38.5 million
    Project Funding:

  <bullet> $9.6 million from Congress
  <bullet> $28.9 million EVMWD contribution
Defining a Recycled Water Model for California
  <bullet> 1.5 billion gallons of `new' water each year, enough to 
        serve 36,000 people
  <bullet> $2.7 million saved a year in imported water costs
  <bullet> $1.8 million saved a year in electricity costs
  <bullet> 15 million kWh of electricity saved, enough to serve 1,685 
        homes for a year
                      evmwd is going green . . . 
  <bullet> 765kWh of solar power produces 5 million gallons of recycled 
        water a day
  <bullet> 12% of EVMWD's electricity needs are supplied by solar power
  <bullet> Recycled water is stabilizing lake levels in southern 
        California's largest natural lake
  <bullet> Lake Elsinore Advanced Pump Sotrage (LEAPS) will:

    --Use `green' wind and solar power to maintain lake levels
    --Generate more `green' hydropower for EVMWD to produce more 
            recycled water
    --Provide `green' energy for southern California in times of 
            blackouts and brownouts
                                 ______
                                 
   Statement of City of Oxnard, CA, Water GREAT Program, on H.R. 1737
                              introduction
    Chairman Bingaman, Members of the Committee. . . I am Andres 
Herrera, Councilman for the City of Oxnard. I am pleased to submit this 
testimony to address a bill to amend the ``Reclamation Wastewater and 
Groundwater Study and Facilities Act,'' better known as H.R. 1737.''
    On behalf of the City of Oxnard, we would like to thank you for 
this opportunity. We also wish to publicly recognize Congresswoman Lois 
Capps for reintroducing this legislation as well as her continued 
support for regional water supply solutions in her district.
                         background information
    Known as ``The City That Cares,'' Oxnard is a beautiful community 
to call home. It is enriched by a culturally diverse people, strong 
economy and breezy weather. Located 62 miles northwest of downtown Los 
Angeles and 35 miles south of Santa Barbara, Oxnard enjoys its rich 
agricultural land and sandy beaches.
    Oxnard's current water supplies consist of groundwater from the 
coastal aquifers underlying the Oxnard Plain and imported state water 
purchased from the Calleguas Municipal Water District. These sources 
are blended in proportions necessary to balance water quality and water 
supply cost. The groundwater supplies utilized by Oxnard are either 
pumped from a groundwater recharge area and delivered to the city 
through a local water management agency or pumped through extraction 
facilities owned and operated by the City of Oxnard.
    However, like other cities in California, Oxnard is faced with 
several water resource challenges.

  <bullet> First, Oxnard is a growing community with a population of 
        nearly 200,000. The City of Oxnard is engaged in a general plan 
        update, as we speak. According to the California Department of 
        Finance, Demographic Research Unit, Oxnard is now the largest 
        city in Ventura County and the 20th largest city out of 475 
        cities statewide. A U.S. Census Bureau projection predicts that 
        the U.S. population will double by 2100 using moderate 
        assumptions. California's population is growing at a rate of 
        700,000 per year, which means the state's population will reach 
        50 million by 2020. It is a given--Oxnard will continue to grow 
        and so will demands on our water resources.
  <bullet> Second, to help restore overdraft conditions, the city's 
        groundwater allocation has been reduced by 20 percent over the 
        past twenty years through the efforts of the local groundwater 
        management agency. An additional five-percent reduction is 
        planned for 2010, for a total 25 percent reduction over 
        historical usage.
  <bullet> Third, imported Northern California water, through the State 
        Water Project, is becoming increasingly more costly and less 
        reliable as the demand on California's water supplies continues 
        to increase with the population.
              the great program and its regional benefits
    The solution to Oxnard's water resource challenges? The Groundwater 
Recovery Enhancement And Treatment Program--or, as it's more commonly 
known; ``the GREAT Program''.
    The GREAT Program is a holistic, conjunctive use type water 
resources project that combines wastewater purification and reuse, 
groundwater injection, aquifer storage and recovery, and brackish or 
groundwater desalination. Implementation of this program will provide 
significant regional benefits:

  <bullet> Improved reliability of high-quality water deliveries to the 
        Oxnard Plain.
  <bullet> Sufficient water supplies to meet Oxnard's water resource 
        needs.
  <bullet> Enhanced local water supply stewardship through recycling 
        and reuse of a substantial portion of the region's wastewater 
        by upgrading the existing Oxnard Wastewater Treatment Plant. 
        The plant is currently a secondary treatment facility, with 
        effluent being discharged to the Pacific Ocean. Under the GREAT 
        Program, the plant will be converted to a 30-million gallon per 
        day tertiary and advanced treatment facility. The discharge 
        will then be used for agricultural irrigation, non-potable 
        municipal and industrial uses, and groundwater recharge. 
        Recapturing this lost resource will be made possible through a 
        new Advanced Water Purification Facility.
  <bullet> Reduced demand on imported water by pumping local 
        groundwater that is no longer pumped by agricultural interests.
  <bullet> Elimination of costly water delivery system improvements by 
        more efficiently using local water resources and reducing our 
        reliance on imported state water.
  <bullet> Reduced cost of wastewater reclamation due to a new brine 
        line for the Regional Groundwater Desalination Facility. We 
        believe desalination, one method of reusing water by removing 
        salts or salinity to meet purification standards, has enormous 
        potential.
  <bullet> Membrane concentrate from the new Groundwater Desalter and 
        Advanced Water Purification Facility will be utilized for 
        local, coastal wetlands restoration. This is a valuable water 
        resource that would otherwise be a waste product and disposed 
        of in the Oxnard Wastewater Treatment Plant's ocean outfall.
                    components of the great program
    There are several components to the GREAT Program.
    The Groundwater Desalter is currently under construction. It will 
utilize 8-inch diameter reverse osmosis membrane treatment technology 
to produce high-quality potable water that will be blended with 
Oxnard's local groundwater sources. The Desalter will be capable of 
producing 7.5 million gallons of water per day with an ultimate 
capacity of 15 million gallons per day. This facility will be 
operational in August 2008.
    Construction should begin on the 30-million gallon per day Advanced 
Water Purification Facility in the next 10 to 12 months. This project 
includes tertiary treatment facilities to meet the State Department of 
Health Services criteria for unrestricted reuse and advanced treatment 
using large-diameter reverse osmosis membrane technology. Both 
treatment facilities, the Desalter and Advanced Water Purification 
Facility, are based on desalination technology.
    The Advanced Water Purification Facility is also responsible for 
producing a new water source. Referred to as GREAT ``Purified'' Water, 
this resource will be utilized for various non-potable purposes and 
will be of higher quality than existing local groundwater. The facility 
will also help relieve overdrafting of the local groundwater basin, 
which has led to seawater intrusion. However, even more beneficial, the 
GREAT Program will create a seawater injection barrier to prevent the 
ocean from mixing with and contaminating underground water supplies. We 
have been working closely with the U.S. Bureau of Reclamation, and 
completed and submitted our required project feasibility study. The 
project also has a certified environmental impact report and has 
garnered all of its necessary land-use entitlements.
    Finally, a silver lining of the GREAT Program is a component study 
entitled the Membrane Concentrate Demonstration Wetlands Project. This 
element was created to demonstrate the environmentally safe use of 
membrane concentrate to restore coastal wetland ecosystems. Positive 
results successfully demonstrated the viability of wetland-based 
concentrate reuse. As home to one of the few remaining wetland 
restoration sites in Southern California, this is very encouraging 
news. This means that membrane concentrate, which is similar to 
brackish water found within these estuaries, may be a suitable water 
source to help restore the Ormond Beach wetlands.
                     public awareness and education
    The GREAT Program has presented the City of Oxnard with a 
tremendous opportunity to inform and educate residents, and the 
surrounding region, on critical water resource issues such as 
conservation, preservation of our wetlands and the facts surrounding 
purified water. Experience has shown us that an effective public 
awareness effort can help foster widespread understanding.
    Our public outreach effort actually started months before the GREAT 
Program was launched in 2001. The campaign has been well received and 
widely reported in regional news and industry publications. It includes 
media relations, an interactive website, informational brochures, 
educational videos, presentations, public tours and numerous special 
events.
                         award-winning program
    The GREAT Program is a state and federal award-winning program. 
Over the past few years it has garnered statewide and national 
attention for its innovation. It was this year's recipient of the 
prestigious League of California Cities Helen Putnam Award and was a 
finalist for the Association of California Water Agencies 2004 Clair A. 
Hill Award for Excellence. It also received recognition from the 
Consulting Engineers and Land Surveyors of California.
                               conclusion
    The City of Oxnard's GREAT Program will provide measurable 
enhancements for Oxnard residents and its surrounding communities. 
While municipalities across the state face many challenges, the GREAT 
Program is an example of how challenges can be transformed into 
opportunities to better serve residents, seek innovative technological 
means to generate solutions, facilitate partnerships, build public 
awareness and enhance public confidence. Yes...we believe that we have 
made significant progress.
    However, with your support of H.R. 1737, the ``City of Oxnard Water 
Recycling and Desalination Act of 2005,'' we believe can work 
cooperatively to make this essential project a reality. More 
importantly, we will ensure a reliable and affordable source of high-
quality water for Oxnard residents.
    Mr. Chairman, members of the Committee... Once again, the City of 
Oxnard would like to thank you for convening this hearing. We are 
extremely supportive of your efforts to ensure adequate and safe water 
supplies for the entire country.
    Thank you for the opportunity and for your consideration of the 
Groundwater Recovery Enhancement and Treatment (GREAT) Program.
                                 ______
                                 
        San Timoteo Watershed Management Authority,
                                   Office of the Secretary,
                                       Beaumont, CA, April 3, 2008.
Hon. Dianne Feinstein,
United States Senate, 331 Hart Senate Office Building Washington, DC.
Re: Support of HR 2614--Yucaipa Valley Water District Regional Water 
Supply Renewal Project

    Dear Senator Feinstein, I am writing in support of HR 2614 and ask 
for your assistance in passing this important water recycling project 
in the Senate.
    Over the past five years, the Yucaipa Valley Water District (YVWD) 
has been methodically building recycled water infrastructure with a 
combination of ratepayer, state, and federal funds. HR 2614 would 
authorize the construction of a twenty mile brine disposal pipeline and 
a desalinization facility to remove salts accumulating in groundwater 
basin of the upper Santa Ana Watershed. This project is an important 
element in the Santa Ana Watershed Basin Plan approved by the Regional 
Water Quality Control Board.
    In addition to improving groundwater quality, the project will also 
lessen the dependence on imported water from northern California by the 
Yucaipa Valley Water District.
    This legislation has been passed by the 108th and 109th Congress to 
the Senate on a voice vote. Furthermore, the project was included in 
your S. 3638 in the 109th Congress.
    Thank you for your consideration of this request.
            Sincerely,
                                         J Andrew Schlange,
                                                    General Manger.
                                 ______
                                 
                        Department of the Interior,
                                     Bureau of Reclamation,
                                      Temecula, CA, April 15, 2008.
Mr. Joseph B. Zoba,
General Manager, Yucaipa Valley Water District, P.O. Box 730, Yucaipa, 
        CA.
Subject: Approval of Feasibility Study; Yucaipa Valley Regional Water 
Supply Renewal Project

    Dear Mr. Zoba: The Bureau of Reclamation is pleased to inform you 
that the feasibility study for and supporting documentation submitted 
for the Yucaipa Valley Regional Water Supply Renewal Project meets the 
requirements of a feasibility study as defined under the Reclamation 
Wastewater and Groundwater Study and Facilities Act (43 U.S.0 390h et 
seq), as amended.
    Enclosed for your information is a copy of the formal approval 
memorandum dated March 26, 2008. Please note that prior to the 
execution of any construction funding agreements, completion of NEPA 
compliance and the submittal of specific financial capability 
documentation will be required.
    If you have any questions, please call me at 951-695-5310.
            Sincerely,
                                         William J. Steele,
                                                      Area Manager.
Enclosure
                               MEMORANDUM
To: Director, Office of Program and Policy Services
    Attention: 84-50000

Through: Lorri Gray, Regional Director

From: William J. Steele, Area Manager

Subject: Approval of Findings, Yucaipa Valley Regional Water Supply 
Renewal Project

    The purpose of this memorandum is to request your approval aouthern 
California Area Office's (SCAO) findings for the feasibility study 
report for the Yucaipa Valley Regional Water Supply Renewal Project 
(Title XVI feasibility report). For the reasons outlined below, the 
SCAO finds that the feasibility study for the subject project is 
complete and meet the requirements of the Title XVI program. Therefore, 
SCAO recommends that the Bureau of Reclamation finds that this Title 
XVI feasibility report meets the requirements of a feasibility study as 
defined under Section 1604 of Public Law 102-575, as amended.
    A meeting was held on August 18, 2006, between SCAO and the Yucaipa 
Valley Water District (District) to discuss the feasibility study for 
this project. Subsequently, on September 11, 2006, the District 
submitted a feasibility study. Mr. Dennis Wolfe (SCAO), in consultation 
with Messrs. Rick Martin and Dean Marrone (Office of Program and Policy 
Services), reviewed the study and compared the documentation submitted 
to the elements of a complete feasibility study as defined in the 
``Guidelines for Preparing, Reviewing, and Processing Water Reclamation 
and Reuse Projects under Title XVI of Public Law 102-57, as Amended'' 
(Title XVI Guidelines). On November 7, 2006, SCAO requested additional 
information regarding the environmental analysis element from the 
District. The requested information, which consists of a complete 
Mitigated Negative Declarayion for the Yucaipa Brineline Project, was 
received by SCAO on January 3, 2008, and has now been reviewed. The 
additional information was found satisfactory by Messrs. Dennis Wolfe 
and Miguel Rocha (Title XVI Program Manager, Office of Program and 
Policy Services).
    A waiver from the requirements identified in Reclamation Manual 
Directive and Standard WTR 11-01, Title XVI Water Reclamation and Reuse 
Program Feasibility Study Review Process (D&S) is requested for the 
following reasons:

  <bullet> This review was initiated before the D&S was approved.
  <bullet> The D&S was modeled after the review process used for this 
        Title XVI feasibility study report resulting in minor variances 
        from the D&S.
  <bullet> Formally following the review process identified in the D&S 
        will require additional time and funding that will not result 
        in different findings.
  <bullet> This waiver will apply to this Title XVI feasibility study 
        report and will not have any Reclamation-wide effect.
  <bullet> Approval of this waiver will set a precedent for one other 
        report (City of Corona) where the review process was initiated 
        prior to signature of the D&S.
  <bullet> This memorandum will serve as the sole means of 
        communication of this waiver.

    For the reasons set forth above, SCAO finds that the Title XVI 
feasibility study report for the Yucaipa Valley Regional Water Supply 
Renewal Project now meets the requirements of a feasibility study as 
defined under Section 1604 of Public Law 102-575, as amended. Your 
concurrence and approval of SCAO's findings is requested.

            Concur:
                                                 Lori Gray,
                                                 Regional Director.
            Approve:
                                          Roseann Gonzales,
                   Director, Office of Program and Policy Services.
                                 ______
                                 
                     Congress of the United States,
                                  House of Representatives,
                                     Washington, DC, April 3, 2008.
Hon. Jeff Bingaman,
Chair, Committee on Energy and Natural Resources, U.S. Senate, 304 
        Dirksen Building, Washington, DC.
    Dear Chairman Bingaman: Thank you for including my bill, H.R. 716, 
the Santa Rosa Urban Water Reuse Plan Act, as part of your hearing on 
April 8, 2008, in the Subcommittee on Water and Power of the Committee 
on Energy and Natural Resources. Your continued leadership on 
conservation issues is greatly appreciated.
    As you may know, the Santa Rosa Water Reuse Plan will be vital in 
helping the City of Santa Rosa (in my district in Sonoma County, 
California) minimize its impact on the Russian River, the main 
conveyance of regional water supplies and a vital migratory corridor 
for threatened salmon and steelhead.
    H.R. 716 will authorize $20 million to help design and construct 
water recycling pipelines to distribute recycled wastewater throughout 
Santa Rosa and its partner communities. Using treated wastewater to 
irrigate new developments, median strips, and park landscapes will 
yield long-term benefits in conserving valuable fresh water for human 
consumption and watershed preservation and enhancement for Santa Rosa 
and nearby communities. This is especially important in a region that 
remains arid for six months of the year and where droughts pose a 
genuine threat to humans and endangered species.
    If this legislation is not authorized, Santa Rosa may resume 
previous levels of discharges of untreated waters into the Russian 
River, further endangering the river ecosystem. This will reverse years 
of progress, ensuring years of conflict with downstream communities and 
mounting costs to the city. Passing the Urban Water Reuse Program will 
be helpful, in tandem with other programs, to reduce further Russian 
River discharges.
    Again, thank you for your consideration of H.R. 716, and I look 
forward to working with you on this bill as it moves through your 
committee.
    Thank you, as always, for your leadership.
            Sincerely,
                                              Lynn Woolsey,
                                                Member of Congress.
                                 ______
                                 
                     Lake Elsinore Unified School District,
                                  Lake Elsinore, CA, April 1, 2008.
Hon. Tim Johnson,
U.S. Senate, Subcommittee on Energy and Natural Resources, Washington, 
        DC.
    Dear Chairman Johnson: I am writing to convey my support for H.R. 
31, the Elsinore Valley Municipal Water District Wastewater and 
Recycled Water Facilities Act of 2007. This legislation overwhelmingly 
passed the House last July, and we encourage the Senate to do the same.
    The Wildomar water recycling project, which would be authorized by 
this legislation, is ready to begin construction and would bring 
immediate benefits to our part of the Inland Empire.
    The Lake Elsinore Unified School District has already seen its 
water bills decrease over $100k a year due to the installation of 
weather based irrigation controllers provided by the water district. We 
anticipate an additional annual savings of approximately $200k if H.R. 
31 is passed and the water district can build the much needed recycled 
water infrastructure outlined in this bill.
    Thank you again, Chairman Johnson for taking the lead on this most 
significant recycled water project for the Elsinore Valley Municipal 
Water District. Federal funding support for this project is vital and 
necessary to match the local and state funds that have been given to 
EVMWD to develop this new water supply.
            Sincerely,
                                   Dr. Frank W. Passarella,
                                           District Superintendent.
                                 ______
                                 
                           Assembly California Legislature,
                                  Sacramento, CA, February 6, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Subject: Support of HR 2614, Yucaipa Valley Water District Regional 
Water Supply Renewal Project

    Dear Senator Feinstein, I am writing in support of HR 2614 and ask 
for your assistance in passing this important water recycling project 
in the Senate. Over the past five years, the Yucaipa Valley Water 
District (YVWD) has been methodically building recycled water 
infrastructure with a combination of ratepayer, state, and federal 
funds.
    There is no opposition to this project. The 108th and 109th 
Congress has passed it to the Senate on a voice vote. Furthermore, the 
project was included in your S. 3638 in the 109in Congress.
    HR 2614 authorizes the construction of a twenty mile brine line and 
a desalinization facility to remove salts accumulating in YVWD's 
groundwater basin due their aggressive recycled water program. The 
project will reduce demand on the State Water Project by four billion 
gallons per year, or 27,000 families.
    YVWD has become a conservation leader in the Inland Empire. This 
project is important to the long-term goal of water self-sufficiency, 
thereby protecting the residents of the East San Bernardino County from 
drought.
    Thank you for your consideration of this request.
            Sincerely,
                                             Bill Emmerson,
                                        Assemblyman, 63rd District,
                                                 Paul Cook,
                                        Assemblyman, 65th District,
                                             Robert Dutton,
                                            Senator, 31st District.
                                 ______
                                 
                      Crafton Hills Open Space Conservancy,
                                     Yucaipa, CA, February 7, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Subject: Support of HR 2614, Yucaipa Valley Water District Regional 
Water Supply Renewal Project

    Dear Senator Feinstein, I am writing in support of HR 2614 and ask 
for your assistance in passing this important water recycling project 
in the Senate. Over the past five years, the Yucaipa Valley Water 
District (YVWD) has been methodically building recycled water 
infrastructure with a combination of ratepayer, state, and federal 
funds.
    There is no opposition to this project. The 108th and 109th 
Congress has passed it to the Senate on a voice vote. Furthermore, the 
project was included in your S. 3638 in the 109th Congress.
    HR 2614 authorizes the construction of a twenty mile brine line and 
a desalinization facility to remove salts accumulating in YVWD's 
groundwater basin due their aggressive recycled water program. The 
project will reduce demand on the State Water Project by over four 
billion gallons per year.
    YVWD has become a conservation leader in the Inland Empire. This 
project is important to the long-term goal of water self-sufficiency, 
thereby protecting the residents of the East San Bernardino County from 
drought.
    Thank you for your consideration of this request.
            Sincerely,
                                           Ingrid Lagerlof,
                                                Executive Director.
                                 ______
                                 
                                           City of Yucaipa,
                                        Yucaipa, CA, April 3, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Re: Support of HR 2614--Yucaipa Valley Water District Regional Water 
Supply Renewal Project

    Dear Senator Feinstein, I am writing in support of HR 2614 and ask 
for your assistance in passing this important water recycling project 
in the Senate.
    Over the past five years, the Yucaipa Valley Water District (YVWD) 
has been methodically building recycled water infrastructure with a 
combination of ratepayer, state, and federal funds. HR 2614 would 
authorize the construction of a twenty mile brine disposal pipeline and 
a desalinization facility to remove salts accumulating in groundwater 
basin of the upper Santa Ana Watershed. This project is an important 
element in the Santa Ana Watershed Basin Plan approved by the Regional 
Water Quality Control Board.
    In addition to improving groundwater quality, the project will also 
lessen the dependence on imported water from northern California by the 
Yucaipa Valley Water District.
    This legislation has been passed by the 108th and 109th Congress to 
the Senate on a voice vote. Furthermore, as you are aware, the project 
was included in your S. 3638 in the 109th Congress.
    Thank you for your consideration of this request.
            Sincerely,
                                              Dick Riddell,
                                                             Mayor.
                                 ______
                                 
                                   City of Banning,
                                       Office of the Mayor,
                                    Banning, CA, February 28, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Subject: Support of HR 2614, Yucaipa Valley Water District Regional 
Water Supply Renewal Project

    Dear Senator Feinstein, I am writing in support of HR 2614 and ask 
for your assistance in passing this important water recycling project 
in the Senate. Over the past five years, the Yucaipa Valley Water 
District (YVWD) has been methodically building recycled water 
infrastructure with a combination of ratepayer, state, and federal 
funds.
    There is no opposition to this project. The 108th and 109th 
Congress has passed it to the Senate on a voice vote. Furthermore, the 
project was included in your S. 3638 in the 109th Congress.
    HR 2614 authorizes the construction of a twenty mile brine line and 
a desalinization facility to remove salts accumulating in YVWD's 
groundwater basin due their aggressive recycled water program. The 
project will reduce demand on the State Water Project by four billion 
gallons per year, or 27,000 families.
    YVWD has become a conservation leader in the Inland Empire. This 
project is important to the long-term goal of water self-sufficiency, 
thereby protecting the residents of the East San Bernardino County from 
drought.
    Thank you for your consideration of this request.
            Sincerely,
                                              Brenda Salas,
                                                             Mayor.
                                 ______
                                 
                                   City of Banning,
                                       Electric Department,
                                        Banning, CA, April 3, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Re:Support of HR 2614--Yucaipa Valley Water District Regional Water 
Supply Renewal Project

    Dear Senator Feinstein, I am writing in support of HR 2614 and ask 
for your assistance in passing this important water recycling project 
in the Senate.
    Over the past five years, the Yucaipa Valley Water District (YVWD) 
has been methodically building recycled water infrastructure with a 
combination of ratepayer, state, and federal funds. HR 2614 would 
authorize the construction of a twenty mile brine disposal pipeline and 
a desalinization facility to remove salts accumulating in groundwater 
basin of the upper Santa Ana Watershed. This project is an important 
element in the Santa Ana Watershed Basin Plan approved by the Regional 
Water Quality Control Board.
    In addition to improving groundwater quality, the project will also 
lessen the dependence on imported water from northern California by the 
Yucaipa Valley Water District.
    This legislation has been passed by the 108th and 109th Congress to 
the Senate on a voice vote. Furthermore, the project was included in 
your S. 3638 in the 109th Congress.
    Thank you for your consideration of this request.
            Sincerely,
                                             James Earhart,
                                         Public Utilities Director.
                                 ______
                                 
                     Beaumont Cherry Valley Water District,
                                       Beaumont, CA, April 3, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Re:Support of HR 2614--Yucaipa Valley Water District Regional Water 
Supply Renewal Project

    Dear Senator Feinstein, I am writing in support of HR 2614 and ask 
for your assistance in passing this important water recycling project 
in the Senate.
    Over the past five years, the Yucaipa Valley Water District (YVWD) 
has been methodically building recycled water infrastructure with a 
combination of ratepayer, state, and federal funds. HR 2614 would 
authorize the construction of a twenty mile brine disposal pipeline and 
a desalinization facility to remove salts accumulating in groundwater 
basin of the upper Santa Ma Watershed. This project is an important 
element in the Santa Ana Watershed Basin Plan approved by the Regional 
Water Quality Control Board.
    In addition to improving groundwater quality, the project will also 
lessen the dependence on imported water from northern California by the 
Yucaipa Valley Water District.
    This legislation has been passed by the 108th and 109th Congress to 
the Senate on a voice vote. Furthermore, the project was included in 
your S. 3638 in the 109th Congress.
    Thank you for your consideration of this request.
            Sincerely,
                                              C.J. Butcher,
                                                   General Manager.
                                 ______
                                 
   California Regional Water Quality Control Board,
                                          Santa Ana Region,
                                      Riverside, CA, April 3, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Re:Support of HR 2614--Yucaipa Valley Water District Regional Water 
Supply Renewal Project

    Dear Senator Feinstein: I am writing in support of HR 2614 and ask 
for your assistance in passing this important water recycling project 
in the Senate.
    Over the past five years, the Yucaipa Valley Water District (YVWD) 
has been methodically building recycled water infrastructure with a 
combination of ratepayer, state, and federal funds. HR 2614 would 
authorize the construction of a twenty mile brine disposal pipeline and 
a desalination facility to remove salts accumulating in groundwater 
basin of the upper Santa Ana Watershed. This project is an important 
element in the Santa Ana Watershed Basin Plan to improve water quality 
in the watershed.
    In addition to improving groundwater quality, the project will also 
lessen the dependence on imported water from northern California by the 
Yucaipa Valley Water District.
    This legislation has been passed by the 108th and 109th Congress to 
the Senate on a voice vote. Furthermore, the project was included in 
your S. 3638 in the 109th Congress.
    Thank you for your consideration of this request.
            Sincerely,
                                       Gerard J. Thibeault,
                                                 Executive Officer.
                                 ______
                                 
                                          City of Calimesa,
                                       Calimesa, CA, April 3, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Re: Support of HR 2614--Yucaipa Valley Water District Regional Water 
Supply Renewal Project

    Dear Senator Feinstein, I am writing in support of HR 2614 and ask 
for your assistance in passing this important water recycling project 
in the Senate.
    Over the past five years, the Yucaipa Valley Water District (YVWD) 
has been methodically building recycled water infrastructure with a 
combination of ratepayer, state, and federal funds. HR 2614 would 
authorize the construction of a twenty mile brine disposal pipeline and 
a desalinization facility to remove salts accumulating in groundwater 
basin of the upper Santa Ana Watershed. This project is an important 
element in the Santa Ana Watershed Basin Nan approved by the Regional 
Water Quality Control Board.
    In addition to improving groundwater quality, the project will also 
lessen the dependence on imported water from northern California by the 
Yucaipa Valley Water District.
    This legislation has been passed by the 108th and 109th Congress to 
the Senate on a voice vote. Furthermore, the project was included in 
your S. 3638 in the 109th Congress.
    Thank you for your consideration of this request.
            Sincerely,
                                             David A. Lane,
                                                      City Manager.
                                 ______
                                 
                                East Valley Water District,
                                        Highland, CA April 3, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Re: Support of HR 2614--Yucaipa Valley Water District Regional Water 
Supply Renewal Project

    Dear Senator Feinstein, I am writing in support of HR 2614 and ask 
for your assistance in passing this important water-recycling project 
in the Senate.
    Over the past five years, the Yucaipa Valley Water District (YVWD) 
has been methodically building recycled water infrastructure with a 
combination of ratepayer, state, and federal funds. HR 2614 would 
authorize the construction of a twenty-mile brine disposal pipeline and 
a desalinization facility to remove salts accumulating in the 
groundwater basin of the upper Santa Ana Watershed. This project is an 
important element in the Santa Ana Watershed Basin Plan approved by the 
Regional Water Quality Control Board.
    In addition to improving groundwater quality, the project will also 
lessen the dependence on imported water from northern California by the 
Yucaipa Valley Water District.
    This legislation has been passed by the 108th and 109th Congress to 
the Senate on a voice vote. Furthermore, the project was included in 
your S. 3638 in the 109th Congress.
    Thank you for your consideration of this request.
            Very truly yours,
                                    Robert E. Martin, P.E.,
                                                   General Manager.
                                 ______
                                 
            San Bernardino Valley Municipal Water District,
                                 San Bernardino, CA, April 3, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Re: Support of HR 2614--Yucaipa Valley Water District Regional Water 
Supply Renewal Project

    Dear Senator Feinstein: I am writing in support of HR 2614 and ask 
for your assistance in passing this important legislation which 
includes a water recycling project for the Yucaipa area.
    Over the past five years, the Yucaipa Valley Water District (YVWD) 
has been methodically building recycled water infrastructure with a 
combination of ratepayer, state, and federal funds. HR 2614 would 
authorize the construction of a twenty mile brine disposal pipeline and 
a desalinization facility to remove salts accumulating in a groundwater 
basin of the upper Santa Ana Watershed. This project is an important 
element in the Santa Ana Watershed Basin Plan, as approved by the 
Regional Water Quality Control Board and the 2007 Upper Santa Ana River 
Watershed Integrated Regional Water Management Plan.
    In addition to improving groundwater quality, the project will also 
reduce the dependence on imported water from northern California by the 
Yucaipa Valley Water District.
    This legislation was passed by the 108th and 109th House of 
Representatives but not the Senate. Furthermore, the project was 
included in your S. 3638 in the 109th Congress.
    Thank you for your consideration of this request.
            Sincerely,
                                          Randy Van Gelder,
                                                   General Manager.
                                 ______
                                 
                            San Gorgonio Pass Water Agency,
                                                     April 3, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Re: Support of HR 2614--Yucaipa Valley Water District Regional Water 
Supply Renewal Project

    Dear Senator Feinstein: I am writing in support of HR 2614 and ask 
for your assistance in passing this important water recycling project 
in the Senate.
    Over the past five years, the Yucaipa Valley Water District (YVWD) 
has been methodically building recycled water infrastructure with a 
combination of ratepayer, state, and federal funds. HR 2614 would 
authorize the construction of a twenty-mile brine disposal pipeline and 
a desalinization facility to remove salts accumulating in groundwater 
basins of the upper Santa Ana Watershed. This project is an important 
element in the Santa Ana Watershed Basin Plan approved by the Regional 
Water Quality Control Board.
    In addition to improving groundwater quality, the project will also 
lessen the dependence on imported water from northern California by the 
Yucaipa Valley Water District and the Upper Santa Ana region in 
general.
    This legislation has been passed by the 108th and 109th Congress to 
the Senate on a voice vote. Furthermore, the project was included in 
your S. 3638 in the 109th Congress.
    Thank you for your consideration of this request.
            Very truly yours,
                                                Jeff Davis,
                                  General Manager & Chief Engineer.
                                 ______
                                 
                     Santa Ana Watershed Project Authority,
                                      Riverside, CA, April 3, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Re:Support of FIR 2614--Yucaipa Valley Water District Regional Water 
Supply Renewal Project

    Dear Senator Feinstein: I am writing in support of HR 2614 and ask 
for your assistance in passing this important water recycling project 
in the Senate.
    Over the past five years, the Yucaipa Valley Water District (YVWD) 
has been methodically building recycled water infrastructure with a 
combination of ratepayer, State, and Federal funds. HR 2614 would 
authorize the construction of a twenty-mile brine disposal pipeline and 
a desalinization facility to remove salts accumulating in the 
groundwater basin of the upper Santa Ana Watershed. This project is an 
important element in the Santa Ana Watershed Basin Plan approved by the 
Regional Water Quality Control Board.
    In addition to improving groundwater quality, the project also will 
lessen the dependence on imported water from northern California by the 
Yucaipa Valley Water District.
    This legislation has been passed by the 108th and 109th Congress to 
the Senate on a voice vote. Furthermore, the project was included in 
your S. 3638 in the 109th Congress.
    Thank you for your consideration of this request.
            Sincerely,
                                             Celeste Cantu,
                                                   General Manager.
                                 ______
                                 
                              Board of Supervisors,
                                  County of San Bernardino,
                                   San Bernardino, CA, May 6, 2003.
Mr. Bruce Granlund,
Board President, Yucaipa Valley Water District, 12770 Second Street, 
        Yucaipa, CA.
SUBJECT: Letter of Support for the Yucaipa Valley Regional Water Supply 
Renewal Project

    Dear Mr. Granlund: The County of San Bernardino supports the 
construction of the proposed Yucaipa Valley Regional Water Supply 
Renewal Project. The project will involve the construction of a 
desalinization facility and approximately 20 miles of brine disposal 
pipeline. The project is essential to provide a reliable water supply 
for the region and effectively eliminate the buildup of minerals and 
various contaminants in the eastern portion of the Santa Ana Watershed.
    This particular project, coupled with the Yucaipa Valley Water 
District's aggressive recycled water program, is a vital step in 
minimizing the amount of water imported from the fragile ecosystem in 
northern California.
    On behalf of the County of San Bernardino, I support the District's 
project and believe it is prudent to secure the necessary funds to 
implement the construction of these facilities.
            Sincerely,
                                         Dennis Hansberger,
                              Chairman, Supervisor, Third District.
                                 ______
                                 
                                 Oak Valley Partners, L.P.,
                                       Calimesa, CA, April 3, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Re: Support of HR 2614--Yucaipa Valley Water District Regional Water 
Supply Renewal Project

    Dear Senator Feinstein, I am writing in support of HR 2614 and ask 
for your assistance in passing this important water recycling project 
in the Senate.
    Over the past five years, the Yucaipa Valley Water District (YVWD) 
has been methodically building recycled water infrastructure with a 
combination of ratepayer, state, and federal funds. HR 2614 would 
authorize the construction of a twenty mile brine disposal pipeline and 
a desalinization facility to remove salts accumulating in groundwater 
basin of the upper Santa Ana Watershed. This project is an important 
element in the Santa Ana Watershed Basin Plan approved by the Regional 
Water Quality Control Board.
    In addition to improving groundwater quality, the project will also 
lessen the dependence on imported water from northern California by the 
Yucaipa Valley Water District.
    This legislation has been passed by the 108th and 109th Congress to 
the Senate on a voice vote. Furthermore, the project was included in 
your S. 3638 in the 109th Congress.
    Thank you for your consideration of this request.
            Sincerely,
                                            Mark Knorringa,
                                           Director of Development.
                                 ______
                                 
                                  SunCal Companies,
                                    Inland Empire Division,
                                         Corona, CA, April 3, 2008.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Re: Support of HR 2614--Yucaipa Valley Water District Regional Water 
Supply Renewal Project

    Dear Senator Feinstein, I am writing in support of HR 2614 and ask 
for your assistance in passing this important water recycling project 
in the Senate.
    Over the past five years, the Yucaipa Valley Water District (YVWD) 
has been methodically building recycled water infrastructure with a 
combination of ratepayer, state, and federal funds. HR 2614 would 
authorize the construction of a twenty mile brine disposal pipeline and 
a desalinization facility to remove salts accumulating in groundwater 
basin of the upper Santa Ana Watershed. This project is an important 
element in the Santa Ana Watershed Basin Plan approved by the Regional 
Water Quality Control Board.
    In addition to improving groundwater quality, the project will also 
lessen the dependence on imported water from northern California by the 
Yucaipa Valley Water District.
    This legislation has been passed by the 108th and 109th Congress to 
the Senate on a voice vote. Furthermore, the project was included in 
your S. 3638 in the 109th Congress.
    Thank you for your consideration of this request.
            Sincerely,
                                             Peter Johnson,
                                                Division President.





</pre></body></html>
